<html>
<title> - NATIONAL DRUG CONTROL POLICY: DRUG INTERDICTION EFFORTS IN FLORIDA AND THE CARIBBEAN</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



NATIONAL DRUG CONTROL POLICY: DRUG INTERDICTION EFFORTS IN FLORIDA AND 
                             THE CARIBBEAN

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 17, 1997

                               __________

                           Serial No. 105-73

                               __________

Printed for the use of the Committee on Government Reform and Oversight


46-177              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Robert Charles, Staff Director and Chief Counsel
              Sean Littlefield, Professional Staff Member
                          Ianthe Saylor, Clerk
                    Ronald Stroman, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 17, 1997....................................     1
Statement of:
    Banks, Samuel, Deputy Commissioner, U.S. Customs Service; 
      James Milford, Acting Deputy Administrator, Drug 
      Enforcement Administration; and Rear Adm. Norman Saunders, 
      Commander, Seventh Coast Guard District, U.S. Coast Guard..    27
    Gingrigh, Hon. Newt, Speaker, U.S. House of Representatives..     1
    Girard, Peter, group supervisor for cargo theft, Miami 
      Seaport, Office of Investigations, U.S. Customs Service; 
      Mike Sinclair, Chief, Miami Seaport Cargo Inspection Team, 
      U.S. Customs Service; James H. Wallwork, commissioner, 
      Waterfront Commission of New York Harbor; Edward V. 
      Badolato, chairman, National Cargo Security Council; and 
      Arthur Coffey, international vice president, International 
      Longshoremen's Association.................................    90
Letters, statements, etc., submitted for the record by:
    Badolato, Edward V., chairman, National Cargo Security 
      Council, prepared statement of.............................   111
    Banks, Samuel, Deputy Commissioner, U.S. Customs Service, 
      prepared statement of......................................    29
    Barrett, Hon. Thomas M., a Representative in Congress from 
      the State of Wisconsin, prepared statement of..............    20
    Coffey, Arthur, international vice president, International 
      Longshoremen's Association, prepared statement of..........   119
    Gingrigh, Hon. Newt, Speaker, U.S. House of Representatives, 
      prepared statement of......................................     5
    Goss, Hon. Porter J., a Representative in Congress from the 
      State of Florida, prepared statement of....................    66
    Grassley, Hon. Charles E., a U.S. Senator from the State of 
      Iowa, prepared statement of................................    86
    Hastert, Hon. J. Dennis, a Representative in Congress from 
      the State of Illinois, prepared statement of...............    13
    Milford, James, Acting Deputy Administrator, Drug Enforcement 
      Administration, prepared statement of......................    40
    Ros-Lehtinen, Hon. Ileana, a Representative in Congress from 
      the State of Florida, prepared statement of................    58
    Saunders, Rear Adm. Norman, Commander, Seventh Coast Guard 
      District, U.S. Coast Guard, prepared statement of..........    50
    Shaw, Hon. E. Clay, Jr., a Representative in Congress from 
      the State of Florida, prepared statement of................    63
    Thurman, Hon. Karen L., a Representative in Congress from the 
      State of Florida, prepared statement of....................    23
    Wallwork, James H., commissioner, Waterfront Commission of 
      New York Harbor, prepared statement of.....................    96

 
NATIONAL DRUG CONTROL POLICY: DRUG INTERDICTION EFFORTS IN FLORIDA AND 
                             THE CARIBBEAN

                              ----------                              


                        THURSDAY, JULY 17, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. J. Dennis 
Hastert (chairman of the subcommittee) presiding.
    Present: Representatives Hastert, Souder, Mica, LaTourette, 
Barr, Barrett, Cummings and Goss.
    Also present: Representatives Ros-Lehtinen, Diaz-Balart, 
Goss, McCollum, Shaw, Weldon, and Senator Graham.
    Staff present: Robert Charles, staff director and chief 
counsel; Sean Littlefield, professional staff member; Ianthe 
Saylor, clerk; Jean Gosa, minority staff assistant/
administrative clerk; and Ron Stroman, minority counsel.
    Mr. Hastert. The Subcommittee on National Security, 
International Affairs, and Criminal Justice will now come to 
order. Before opening statements are delivered, I'd just like 
to say that we have a vote. So I'm going to recess this 
meeting. I expect to be back here in 15 minutes. Then we will 
proceed. The committee is in recess.
    [Recess.]
    Mr. Hastert. Ladies and gentlemen, before making opening 
statements and the rest of the delegation here from Florida 
have the opportunity to make their statements, I'd like to 
recognize Speaker Gingrich for his remarks.
    As you know, the drug issue remains one of the top 
priorities for the Speaker and certainly is at the top of his 
agenda. It's certainly an honor to have him before us here 
today. Mr. Speaker.

    STATEMENT OF HON. NEWT GINGRIGH, SPEAKER, U.S. HOUSE OF 
                        REPRESENTATIVES

    Mr. Gingrich. Well, first of all, let me thank you, 
Chairman Hastert, for holding this hearing and for working with 
the Florida delegation and for allowing me to testify. I also 
want to thank the members of the Florida delegation for 
specifically bringing the problems they are facing in fighting 
drug trafficking before the Congress.
    Any time a Member of Congress, a committee of Congress, or 
any citizen of America discusses the drug crisis in our country 
we suc- ceed in building public awareness about this current 
national cri- sis.
    The current rate of drug use in this country and the 
resulting so- cial problems of crime, physical abuse, and lost 
human potential demand immediate and decisive action on our 
part.
    I have said consistently that I think we can make America 
vir- tually drug-free by 2001. To some people that seems an 
outlandish statement. But look at the facts. When I was in high 
school, less than 3 percent of the country used drugs of any 
kind. There was a presumption that you would live in a drug-
free neighborhood and go to a drug-free school, such a 
presumption that no one even had signs advertising it.
    I believe that we can get back to that kind of America that 
most of us grew up in. And I think that we owe it to our 
children and grandchildren to do that. Can we achieve a 
virtually drug-free America? Yes. Can we achieve a virtually 
drug-free America with a bureaucracy and social policy and 
intellectual theory that is wrong? No. So what is the solution?
    First, we need to build public awareness and support that 
drug abuse in America is out of control and the 
administration's meager efforts to control the problem have 
failed miserably.
    We must not confront this crisis with the mind-set of 
merely con- trolling the current level of drug use. There is no 
acceptable num- ber of addicted or dead children. We must 
approach this crisis with one thought in mind--completely 
eradicating drugs.
    Second, we must have a plan to win. We must channel our 
coun- try's outrage into a comprehensive, centralized plan to 
prevent our children from using drugs, help those who are users 
to quit, and attack the pushers of poison that fuel our drug 
epidemic.
    After a 65 percent decrease in drug use over 14 years, 
there has been a 150 percent increase in drug use since 1992. 
The decline began with Nancy Reagan's Just Say No program. 
Getting the mes- sage out works. Jim Burke, director of the 
Partnership for a Drug- free America, will tell you with 
absolute statistical proof that if children see and hear 
antidrug messages on television and radio, in school lessons 
and in their local community, we can drive down drug use by a 
third.

    We simply need a constant bombardment of the message, 
``Don't do it.'' In every school we ought to be talking about 
drugs. We ought to have organizations like the Fellowship of 
Christian Ath- letes in every community talking with kids as 
athletes about drugs.We ought to have radio and television 
advertising communicating our message.

    Then we ought to have effective rehabilitation that largely 
means faith-based rehabilitation. We must take Rob Portman's 
Drug-free Communities Coalitions and help every community start 
one of their own.

    We must educate and cure in order to stop the demand for 
drugs 
in America and we must take control of our border, which is 
what 
this hearing is all about today.
    We will not tolerate drug dealers crossing the American 
border. Senator Lott and I have a bill that says, if we convict 
you of carry- 

ing a commercial quantity of illegal drugs into the United 
States, you get automatic life without parole. But if you are 
convicted of having done it more than once as a professional 
narcotics dealer, you get a mandatory death penalty.
    That changes the equation of risk. Malaysia and Singapore 
are places with a very low drug rate. Why? Because they are 
very tough on people who bring drugs into their country. We 
need better coordination and more money at the border. We need 
the Border Patrol, the Coast Guard, the Drug Enforcement 
Administration, the National Guard and Customs to act in 
concert as one unit.
    But what do we have? We have disconnected strategies, with 
no overall framework to win the war on drugs. While we have 
directed our resources to the Southwest border with initiatives 
such as Operation Gatekeeper, we have simultaneously disarmed 
ourselves in the Caribbean basin. Funding for interdiction in 
the Southeast dropped 43 percent from 1992 to 1995. There has 
been a substantial decrease in the number of radar planes and 
shallow water vessels in the area, resulting in easy maritime 
access to Florida for drug smugglers. Is this the way to win 
the war? No. We must work smarter and exercise consistent 
leadership at every level.
    But as we examine the enormous scope of this problem, we 
cannot simply decide to spend more and be satisfied that we 
have done our job. We must figure out what has worked and what 
hasn't and focus our resources on what has worked. We must 
untangle the Federal agency jurisdictional problems to 
eliminate overlap.
    I urge today that as you look at the surge of drug 
trafficking and related problems facing the State of Florida, 
you make recommendations on how best to redirect resources and 
solve inefficiencies.
    Let me close with this summary thought. We have spent, 
according to one estimate, $279 billion at the State, Federal 
and local level on the war on drugs since 1982. And we have 
done it almost precisely like Vietnam. It is an uncoordinated, 
chaotic, bureaucratic mess, with inadequate thought at a 
strategic level and no centralized command and control.
    We fought World War II by mobilizing the Nation, gathering 
the resources, insisting that responsibility was indivisible 
and command was singular, ensuring the job got done.
    You will, I know, Mr. Chairman, be, later on this fall, 
looking at reauthorizing the office of the drug advisor. And 
that's what he is. He's not a drug czar. He has no power. What 
I will be urging is two things. And I hope all the folks that 
are here representing very important government agencies will 
take these into account as they make their recommendations. We 
need to set as our goal winning by 2001, decisively, clearly. 
That's, by the way, a long way off by the standards of most of 
America's wars. It's very important to remember. All of World 
War II on the American side is December 7, 1941 to the fall of 
1945. Less than 4 years to win a global war.
    So we're not talking about something that's impossible. 
We're the most powerful Nation in the world, with the largest 
economy on the planet. We have the most sophisticated 
communication systems and we keep talking as though this is 
hopeless.
    So, first, let's set the goal and say to every agency 
involved, ``What will it take?'' Second, we should allow no 
constraint except the Constitution to block us. Obviously we 
want to protect every constitutional liberty. Within that 
framework we should set whatever penalties are needed. We 
should organize whatever bureaucracies are needed. We should 
reorganize bureaucracies as they are needed. We should set 
annual goals and targets. We should fire people who don't make 
those targets. We should hold people accountable. We should 
win.
    And winning is simple. Winning is children growing up in a 
drug-free neighborhood going to a drug-free school living a 
drug-free life without drive-by killings.
    And let me just close by pointing out that the groups that 
have the most at stake are the minority communities, who have 
seen a generation of young men go to jail because their country 
failed to protect us from outside sources that were selling us 
drugs.
    If we'll be serious on education, on prevention, on 
rehabilitation, and on enforcement at the border, and if we 
will go after the drug dealers at every point, including their 
money, and do it effectively--and I know the distinguished 
chairman from Florida, Mr. McCollum, is going to be looking on 
the money laundering issue--we can win this. But we need to win 
it the way we won World War II--decisively, effectively, 
thoroughly, and swiftly. Because that's the only way you 
mobilize the American people.
    I'd be glad to take any questions.
    [The prepared statement of Hon. Newt Gingrich follows:]

    [GRAPHIC] [TIFF OMITTED] T6177.001
    
    [GRAPHIC] [TIFF OMITTED] T6177.002
    
    [GRAPHIC] [TIFF OMITTED] T6177.003
    
    [GRAPHIC] [TIFF OMITTED] T6177.004
    
    Mr. Hastert. Any questions for the Speaker? The gentleman 
from Florida.
    Mr. Shaw. I have just a--not a question, but a comment. I 
want to associate myself with the remarks of the Speaker and 
everything he said. I wrote a paper not too long ago called, 
``Blueprint for Victory.'' And it was taking that same 
position. And that is that there is not a resolve in this 
country, and there never has been through several 
administrations, to actually win the war on drugs.
    And that is something that is obtainable. I quite agree 
with the Speaker when he says that we should stop at nothing 
short or--except the possible violation of the Constitution in 
meeting that objective.
    It is absolutely ridiculous that the strongest country that 
has ever been on the face of this earth is kowtowing to drug 
producing countries, countries that are allowing this to go on 
within their own borders, and that we do not really exert 
ourselves as the world leader and really stop of nothing short 
of illegalities under the Constitution in seeing that our 
objectives are carried out.
    That is the greatest threat to the future of this country. 
I can tell you, in these drug-producing countries, if they were 
producing bombs, if they were producing germ warfare, chemical 
warfare weapons, we would be in there taking them out, even 
though the chemical warfare weapons would probably never be 
used against the United States.
    The weapons of drugs are being used in the United States. 
And just one last thing that I think is tremendously important 
and I think everyone should really realize, if these crack 
sales were going on in our upper white middle class 
neighborhoods, we would have a much stronger resolve in this 
country than we have today.
    And I think that what this is doing, it is destroying a 
whole generation, particularly of minority populations. We 
should not allow this to happen, and we should see that we will 
stop at nothing to see that we do cure this problem and meet 
the objectives that the Speaker has referred to, and that is by 
becoming a drug-free Nation in the very early years of the next 
century. Thank you, Mr. Chairman.
    Mr. Hastert. The gentleman from Florida, Mr. McCollum.
    Mr. McCollum. Thank you very much, Mr. Chairman. I want to 
commend the Speaker. He knows from my personal conversations 
and working with him on this matter how impressed I am with the 
dedication with which you are serving us on this issue, Mr. 
Gingrich.
    I want to ask one question for clarification. Assuming that 
our planners involved in the drug war in the administration 
come forward, as we all hope they do in the next few months, 
and that we join them in a mission to interdict 80 percent of 
the drugs coming to this country before they get here--doing 
what is necessary on the demand and the supply side to win the 
war on drugs by the year 2001--are you prepared as the Speaker 
to do whatever is necessary to direct the resources that 
undoubtedly will have to flow to accomplish this goal, which 
obviously is an enormous goal in terms of actually winning the 
war?
    Mr. Gingrich. We are very committed to meeting the requests 
of this administration to win the war. In fact, we are in--
Chairman Kolbe of the appropriate subcommittee is actually 
prepared to offer more resources, for example, for the TV and 
radio advertising program than the administration asked for.
    I would say the administration, if you will tell us the 
specific achievements you think can be gained, the size of the 
resources you need, the grant of authority you need and the 
restructuring of bureaucracy you need, we will do everything we 
can in the Congress--and I think Senator Lott shares this on 
the Senate side--to get through as rapidly as possible, 
enabling this country to win the war and protect our children. 
Absolutely.
    Mr. Shaw. Well, Mr. Speaker, we're the front door for the 
war on drugs down in Florida, and we really appreciate that 
commitment. Thank you, Mr. Chairman.
    Mr. Hastert. The gentleman from Florida, Mr. Goss.
    Mr. Goss. Thank you, Chairman Hastert. Mr. Speaker, thank 
you very much for taking this initiative and being with us 
today. There are two areas I'd like to followup, if I may, sir.
    One has to do with the question of the commitment of the 
resources of the U.S. Congress to what I will call intelligence 
architecture. I think that we all know that with interdiction, 
if you have good information, you have a much better chance of 
a life-saving, cost-saving, successful outcome.
    And I think that is a very important part of this 
initiative. I don't want it to be overlooked. Because I think 
if we do have that architecture and implement it properly we 
will have very fine results. That is probably going to take a 
commitment to rearrange some things.
    Second, we have noticed as we have tried to take a look at 
the war on drugs in the past, as you've pointed out, it has 
been less than successful. Talking to Bill Bennett, he told me 
that he had testified before 43 separate committees of 
Congress. I would suggest that means we're going to have to 
change a few things on the Hill, too. And I would like to know 
that we have your support for recommendations that are going to 
come along those lines as well.
    Mr. Gingrich. Yes. Let me say on the first item that I 
believe it is nothing less than a scandal, the degree that we 
have failed to use our capacity to build both an intelligence 
and an interdiction capability, which clearly if this had been 
the Soviet Union we would have done.
    If we had applied assets in a systematic manner over the 
last 15 years we would currently have an American-controlled, 
American-operated network throughout all of the drug regions. 
And we would clearly have over the Caribbean, for example, 24-
hour-a-day capabilities. We just would not have tolerated it if 
it was the Soviet Union.
    So if this is real war and we are really determined to win 
we have to build an American-controlled, American-operated 
intelligence capability anywhere we need it. We need to be 
capable of operating in those regions. We need real time 24-
hour a day surveillance capabilities to sustain whatever level 
of interdiction effort is required to meet the appropriate 
goals.
    Mr. Hastert. Mr. Speaker, thank you very much for being 
here. The gentleman from Wisconsin, Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman. I appreciate the fact 
that you're here, Mr. Speaker. I'm sorry I wasn't here for your 
testimony. As you know, we have two votes going on. But I 
understand in part of your testimony you indicated that the 
right way to approach this problem is the Nancy Reagan Just Say 
No approach.
    Mr. Gingrich. As a part of it.
    Mr. Barrett. As a part of it. And consistent with that, 
Gen. McCaffrey has indicated his desire to have essentially a 
widespread media campaign, something that I think would be 
quite effective. And I'm wondering whether that is something 
that you would support.
    Mr. Gingrich. Yes. I had mentioned I think--I appreciate 
the question--I had mentioned just before you came, I think, 
that we have in the appropriate subcommittee of Appropriations 
allocated, actually, more money than Gen. McCaffrey has asked 
for, determined to try to ensure that we have more than enough 
resources.
    I've worked very, very close with the Partnership for a 
Drug-free America and Jim Burke in trying to make sure that it 
was the right direction to go in. And I think because of the 
changing nature of television and radio, frankly, that this is 
the right thing to do to reach young people. And we know 
statistically that it works very dramatically.
    Mr. Barrett. OK. Well, I'm happy to hear that, because I 
think that's an important part of this program. Thank you. I 
yield back.
    Mr. Gingrich. Thank you.
    Mr. Hastert. Thank the gentleman from Wisconsin. And to the 
gentleman from Georgia, just let me say that we have the 
chairman of the Intelligence Committee here, we have the 
chairman of one of the Subcommittees on Crime, and the 
commitment of Bob Barr, who is another member of this 
committee, to do the money laundering issues.
    I think we have a good start. And we really appreciate your 
leadership in this. And we'll be working with you very closely. 
Thank you very much for being here.
    Mr. Gingrich. Thank you.
    Mr. Hastert. I would like, first off, to welcome all the 
members of the Florida delegation who have joined us here 
today. These members have served as our leaders in the war 
against illegal drugs and it's because of their leadership that 
the 105th Congress is making genuine progress in the face of 
our most insidious national security threat.
    Today's hearing comes at an important time. The citizens of 
our Nation have been shocked in recent years as we continuously 
see the encroachment of drugs, drug related crime and street 
gangs. No longer are any communities insulated from the 
problems that we used to think were confined only to the big 
cities.
    A year ago on behalf of the U.S. House leadership I began 
trying to pull together Republicans and Democrats committed to 
finding real and lasting solutions to our Nation's drug 
problems. One item stands out from this. Every aspect of the 
drug war is interconnected. One aspect hooks onto another like 
a chain link fence.
    We have to attack every link. And the success or failure of 
our policies in any specific area drastically effects the 
success or failures of our policies in all areas. Our committee 
has worked hard in the past year to change Washington's 
thinking on this issue. I think we're starting to make a 
difference.
    One month ago, Congress passed and President Clinton signed 
into law the Community Anti-Drug Coalition Act of 1997. This 
law, which our committee worked hard to pass, will provide 
millions of dollars of desperately needed Federal funding to 
local antidrug groups and communities across America.
    But more importantly, communities and groups who have 
worked to pull themselves up by their own boot straps that have 
something going for it that want to be part of the solution and 
not part of the problem. Community groups will now be able to 
apply for and receive more resources to aid them in their 
work--in fact, up to $100,000 per community--in antidrug 
coalition work.
    In the months ahead I hope that the bipartisan cooperation 
in this war will carry forward. As the Congress works, and the 
White House, to develop new comprehensive approaches to 
fighting and winning the war on drugs, our children's future 
and our country's hang in the balance. What we discuss here 
today will help us formulate a winning antidrug strategy.
    And today's hearing focuses on drug interdiction efforts in 
Florida and the Caribbean. Over the past few years the drug 
interdiction focus has been on the Southwest border. I was 
there this week. It's improving. We're doing a good job. We 
need to keep our focus there. But we also need to attack the 
other problems that drugs have infested.
    However, we must not lose focus on the creating and 
maintaining a sound overall border policy. And we tend to look 
at drug control efforts in bits and pieces, also. It's time for 
both the executive and legislative branches to commit ourselves 
to looking at securing our entire southern border and our 
northern border in one comprehensive and cohesive plan.
    This committee has done a good job. I wouldn't have been 
able to do it without the bipartisan help and support that we 
have in this committee. This isn't a Republican issue. It's not 
a Democrat issue. It's not a House issue. It's not a Senate 
issue. It's an issue that is the very heart and soul of the 
survival of our future and our children.
    So I appreciate the Florida delegation being here today and 
talking about their specific problems. I also appreciate the 
gentleman from Florida who has been a co-worker in this issue. 
And I now turn over to Mr. Barrett for an opening statement.
    [The prepared statement of Hon. J. Dennis Hastert follows:]

    [GRAPHIC] [TIFF OMITTED] T6177.005
    
    [GRAPHIC] [TIFF OMITTED] T6177.006
    
    [GRAPHIC] [TIFF OMITTED] T6177.007
    
    [GRAPHIC] [TIFF OMITTED] T6177.008
    
    [GRAPHIC] [TIFF OMITTED] T6177.009
    
    Mr. Barrett. Thank you, Mr. Chairman. Mr. Chairman, with 
the demise of the Cali Cartel, new independent drug traffickers 
in Colombia are increasingly using the Caribbean transit zone 
to transport drugs into this country. These Caribbean drug 
transportation routes flow directly into south Florida, with 
devastating consequences.
    According to the 1997 Miami High Intensity Drug Trafficking 
Area Threat Assessment, there has been a 30 percent increase in 
cocaine smuggling and a 27 percent increase in marijuana 
smuggling into the south Florida region this year.
    This increased flow of drugs into south Florida is 
occurring at a time whether, according to the GAO, funding for 
U.S. drug interdiction efforts has declined, undermining the 
ability of law enforcement agencies to track and intercept drug 
traffickers.
    Moreover, many poor Caribbean countries simply do not have 
the resources necessary to effectively combat multi-billion 
dollar drug operations. This is an untenable situation, 
requiring immediate attention.
    Since Colombian drug traffickers are increasingly using the 
Caribbean to transport drugs into the United States, additional 
antidrug resources for south Florida may be required. It is 
important, however, that any additional resources be part of a 
comprehensive regional plan to limit drug trafficking within 
the Caribbean transit zone.
    In this regard, I look forward to hearing the testimony of 
our expert witnesses regarding the most important components of 
such a plan and what, if any, additional resources may be 
required.
    In addition, Mr. Chairman, I'd like to quote from a 
statement that I will ask unanimous consent to be read into the 
record from our colleague, Karen Thurman, who was the ranking 
member of this subcommittee last session. And what she said is, 
``One of the first things that I learned from listening to Gen. 
McCaffrey, DEA, and other experts, is the balloon analogy. When 
you squeeze one part of the balloon, the other part expands.''
    When the United States emphasized interdiction efforts in 
the waters off Florida, drug trafficking shifted to the border 
with Mexico, so the Bush administration responded by putting 
more antidrug personnel to the Southwest. Now we see the 
purveyors of death are returning to Florida and the eastern 
Caribbean with impunity.
    Gone are the small twin engine airplanes. In their place we 
see more and more cocaine in containerized cargo vessels; and 
their ports of entry are in Florida. I am convinced that, once 
again, the American people must respond to this shift in drug 
trafficking. That means that Congress must provide the 
resources to deal with the current influx of illegal drugs--
more custom inspectors, more and faster vessels for the Coast 
Guard, more DEA agents, more prosecutors.
    As the threat shifts, so must our response. Drug 
traffickers recognize no law, no boundary, and no political 
party. In the past, Democratic Congresses shifted assets to 
areas of need during Re-
publican administrations. Today, a Republican Congress must 
ensure that Florida does not again become the focus of illegal 
drug traffickers. I would ask unanimous consent to have Mrs. 
Thurman's entire statement read into the record. Thank you, Mr. 
Chairman.
    [The prepared statement of Hon. Thomas M. Barrett follows:]

    [GRAPHIC] [TIFF OMITTED] T6177.010
    
    [GRAPHIC] [TIFF OMITTED] T6177.011
    
    Mr. Mica [presiding]. Thank you. And thank you also for 
your commitment to this effort. Without objection, Mrs. 
Thurman's complete statement will be made a part of the record. 
Also, the record will remain open for other members of the 
panel or members of the Florida delegation to submit opening 
statements for the record.
    [The prepared statement of Hon. Karen Thurman follows:]

    [GRAPHIC] [TIFF OMITTED] T6177.012
    
    Mr. Mica. I will now recognize myself and then yield to 
members of the Florida delegation by prior agreement for any 
remarks they have. I wanted to make a couple of comments as a 
member of this committee.
    First of all, the reason for this hearing today is the 
request, specifically, of the Florida delegation to examine the 
status of Federal efforts to combat illegal drugs in Florida 
and the Caribbean region. We just heard from the Speaker. Some 
of you may not know the background of his involvement or of the 
involvement of the chairman of this subcommittee, Denny 
Hastert.
    This subcommittee is part of the Government Reform and 
Oversight Committee. And 2\1/2\ years ago the Speaker charged 
the full committee and this subcommittee with the 
responsibility of putting all the pieces of the puzzle that 
make up our war or made up our war on our Federal effort on the 
drug front into a cohesive effort. That effort first was led by 
Bill Zeliff, who chaired this subcommittee.
    The Speaker specifically directed Denny Hastert, who now 
chairs the subcommittee, to be the coordinator, because this is 
a multi-jurisdictional question, as you heard. There are 20-
some agencies and almost every cabinet level activity plus 
numerous committees of Congress involved in an effort--the 
Speaker wanted this effort coordinated.
    Denny helped lead the effort and now he chairs the 
subcommittee responsible for the effort. They have worked with 
the appropriators and the authorizers to make certain that the 
resources are there. You can just look at the difference that--
in the commitment that's been made by the Congress.
    So I want to compliment the Speaker, who has left us, also 
Mr. Zeliff and our current chair, Mr. Hastert, for their 
efforts.
    As a member of the subcommittee, I recently visited south 
Florida and the Bahamas with the staff members of our 
subcommittee and also the Intelligence Committee to examine the 
status of our drug control efforts.
    My visit and the subsequent report to the subcommittee 
confirmed my worst suspicions--and after meeting with customs, 
DEA officials in the Bahamas--that Florida is in fact 
experiencing an explosion in the volume of drugs coming through 
that area and through the Caribbean.
    In certain instances, valuable assets have been taken from 
Florida. We have an urgent need for increased assets and 
manpower so that our men and women in the field can address the 
influx of drugs into Florida via maritime cargo and by air. If 
you've attended these hearings before you've seen my newspaper 
articles.
    What happens in south Florida or the Caribbean is also 
reflected in my area. I have sort of a parochial interest. This 
is a headline I brought before this committee a number of times 
in 1996, a year ago. July 14, it says, ``Long Out of Sight, 
Heroin Is Back Killing Teens.''
    We've had an unprecedented number of deaths of young people 
by heroin in central Florida. This article is from Wednesday, 
April 16, a few months ago. Orlando, No. 2 in cocaine deaths. 
And then last week I have a new addition to the collection: 
``Hooking America: Heroin Is Purer.'' It says that the supply 
of heroin on the U.S. streets has doubled in the past decade, 
according to DEA.
    In the Orlando area, heroin overdose went from zero in 1993 
to 30 last year. More teens die locally of overdoses than any 
other major U.S. city. In that regard, I asked this week of 
Barry McCaffrey, our drug czar and head of Office of Drug 
Policy, to designate central Florida as a high intensity drug 
traffic area.
    I've also written the committee of jurisdiction, the 
Appropriations Committee. I hope not to have to use a 
legislative method to get that designation. We see what's 
happening in the Caribbean and letting our guard down is now 
affecting us dramatically in my back yard, in my district in 
central Florida.
    Those are basically my opening comments. I do want to say 
that this--echo the comments of the chair, that this is indeed 
a bipartisan effort and that we try to approach this in a 
manner that will benefit the children of America and those who 
face this plague that is now on the streets of Florida and 
across our Nation.
    Those are my opening comments. I'd like to yield now to the 
gentleman from Miami, Mr. Lincoln Diaz-Balart. Thank you.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. Mr. Chairman, I 
am very concerned about what I perceive as this administration 
not confronting the Cuban Government as a major enemy of the 
effort to shield America's frontiers from the drug threat.
    There is no doubt that the Castro dictatorship allows Cuba 
to be used as a trans-shipment point for drugs. I was deeply 
disappointed in June 1996 when DEA Administrator Constantine, 
testifying before the House International Relations Committee, 
said that there is no evidence of the Government of Cuba being 
complicit in the drug smuggling business.
    On the contrary, there is no doubt that the Castro 
dictatorship is in the drug business. Castro and his top aides 
have worked as accomplices for the Colombian drug cartels; Cuba 
is a key trans-shipment point.
    In fact, last year--1996--sources in the DEA and/or Customs 
Miami field office stated to the media--and I have a copy of 
video in my office to this effect--that more than 50 percent of 
the drug trafficking detected by the United States in the 
Caribbean proceeds from or through Cuba.
    Now, it's very worrisome when even you, Mr. Chairman, are 
told by our officials during your trip, as you subsequently 
told me, that this is not the situation. So there is a 
confrontation. There is a conflict that must be brought to a 
head at some point between what local folks in drug enforcement 
admit and what our top officials are saying and even telling 
Members of Congress.
    This is a very serious matter, because this can no longer 
continue. If, for a political reason, as I believe is the case, 
there has been a decision to cover up the participation of the 
Cuban regime in drug trafficking, that is extremely serious.
    So I am very happy that this hearing is taking place, and 
that we will continue with efforts such as this. The reality of 
the matter is, one, because past administrations identified 
Cuba as a major trans-shipment point for narcotics trafficking, 
it was integrated into the larger interdiction effort. By 
contrast, under the existing strategy, no aggressive efforts 
have been made to cutoff this pipeline, despite the growing 
awareness of its existence.
    In April 1993, the Miami Herald reported that the United 
States attorney for the southern district of Florida had 
drafted an indictment charging the Cuban Government as a 
racketeering enterprise and Cuban Defense Minister Raul Castro 
as the chief of a 10-year conspiracy to send tons of Colombian 
cartel cocaine through Cuba to the United States.
    Fifteen Cuban officials were named as co-conspirators and 
the defense and interior ministries were cited as criminal 
organizations. This is a draft indictment that exists in the 
southern district of Florida.
    Just last year the prosecution of Jorge Cabrerra, a 
convicted drug dealer, brought to light additional information 
regarding narcotrafficking by the Castro dictatorship. Cabrerra 
was convicted of transporting almost 6,000 pounds into the 
United States, sentenced to 19 years in prison and fined over 
$1 million.
    He made repeated specific claims confirming cooperation 
between Cuban officials and the Colombian cartels. His defense 
counsel has publicly stated that Cabrerra offered to arrange a 
trip under surveillance that would actively implicate the Cuban 
Government in narcotrafficking.
    So evidence such as this exists. For some reason it's being 
covered up. And I think it's about time, Mr. Chairman, that we 
get serious about this matter. And I would hope that the 
witnesses today do not continue to whitewash this issue, ignore 
this very serious matter, and because of political instructions 
from above, come and ignore a very serious matter. Thank you, 
Mr. Chairman.
    Mr. Mica. I thank the gentleman and thank him for his 
comments and participation in the panel. We've lost some of our 
participants with votes and other committee meetings, but we do 
want to go ahead and proceed with our next panel. And as they 
come I'll either let them participate and submit their 
statements at that time or later on.
    I'd like to call our second panel. Our second panel today 
is Samuel Banks--Samuel Banks is Deputy Commissioner, U.S. 
Customs Service and Mr. James Milford, Deputy Administrator of 
the Drug Enforcement Administration. Also, we have Rear Adm. 
Norman Saunders, Commander of the 7th Coast Guard District, 
U.S. Coast Guard.
    Gentlemen, this is an investigations and oversight 
subcommittee of Congress. We do swear in our witnesses. If 
you'll stand, please, and raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. 
Gentlemen, it's also the custom of our investigations and 
oversight subcommittee and panel to allow you 5 minutes to 
present oral remarks. If you have lengthy statements, we'd be 
glad to include them as part of the official record of this 
hearing. We will begin by recognizing Samuel Banks, Deputy 
Commissioner, U.S. Customs. Welcome. You are recognized, sir.

 STATEMENTS OF SAMUEL BANKS, DEPUTY COMMISSIONER, U.S. CUSTOMS 
   SERVICE; JAMES MILFORD, ACTING DEPUTY ADMINISTRATOR, DRUG 
  ENFORCEMENT ADMINISTRATION; AND REAR ADM. NORMAN SAUNDERS, 
   COMMANDER, SEVENTH COAST GUARD DISTRICT, U.S. COAST GUARD

    Mr. Banks. Thank you, Mr. Chairman, members of the 
subcommittee. It's a privilege to appear before you today to 
discuss the U.S. Customs Service efforts to support the 
national drug control strategy by shielding the Nation's 
borders from drug trafficking.
    As been mentioned over the last few years, we've focused a 
lot of our resources and attention on drug smuggling on the 
Southwest border. To counter that threat, we shifted over 800 
enforcement officers and over $150 million in technology and 
equipment to enhance our intelligence, inspectional and 
investigative efforts along that border.
    While that border continues to warrant our most determined 
efforts, there is compelling evidence that drug organizations 
are increasing trafficking through the Caribbean and south 
Florida.
    Although seizure statistics are only an indicator of 
trends, in fiscal year 1996 Customs seized over 75,000 pounds 
of cocaine in south Florida and over 24,000 pounds of cocaine 
in Puerto Rico. This was almost a 100 percent increase in 
cocaine seizures for south Florida, and it represented 40 
percent of all the cocaine seized nationwide.
    In view of this increasing threat in early 1996 we 
introduced Operation Gateway and began shifting more resources 
into Puerto Rico. And even the Government of Puerto Rico 
provided $2.5 million, which helped us fund 57 new positions. 
This year, with congressional support, we had $28 million that 
we've put into Puerto Rico to add additional positions, 
aircraft, vessels, and a variety of other support.
    The outcome this year has been a 34 percent increase in 
cocaine seizures. Now I'm also aware that the committee has 
expressed an interest in the internal conspiracy threat at the 
airports and seaports in the south Florida area. There's no 
question that it's a very real and very serious threat. 
Personnel working for the airlines, steamship lines and others 
involved in the handling of cargo can circumvent our normal 
targeting and security system. It's estimated that 48 percent 
of the cocaine seized this year in air cargo and aircraft at 
Miami International involved internal conspiracies.
    Our seaport teams also face similar problems, but we have 
two officers that are going to testify later who can elaborate 
on that.
    So there is no question that the threat of drug trafficking 
in the Caribbean and in the Southeast is growing. I know that 
we're being pressed hard to put additional resources down 
there. The fact of the matter is that our budget has virtually 
remained static, with some gains for inflation, over the last 4 
years.
    We have substantially increased our enforcement resources 
in the Southwest and Puerto Rico. Most of that has been done by 
shifting, internally, resources to try to deal with the high 
threat areas. There have been some very hard, painful tradeoffs 
that we have made, not just to us but also to the public we 
serve.
    In lieu of bigger budgets, what we are aggressively 
pursuing is new, creative ways to deliver on our counterdrug 
enforcement mission. First, we're using computers and 
sophisticated information technology to target the high risk 
shipments. When you get as many planes and as many containers 
and as many people that we face every day, you've got to be 
able to pick the ones that are of the greatest risk. We also 
use a vast array of technology to support our aviation, marine, 
inspection, and investigative efforts.
    Second, we are building much better partnerships with other 
Federal, State and local law enforcement agencies. I would say 
especially DEA and the Coast Guard. We are cooperating on 
virtually every front, from intelligence sharing to combine and 
coordinated deployment of resources and equipment to joint 
investigative initiatives.
    ONDCP and the DOD is helping us build new technologies, 
such as large x rays for ocean containers. The National Guard 
is invaluable to boost our inspection and intelligence 
programs. Even our Blue Lightning operation, which ties us with 
State and local police in south Florida, is a textbook example 
of cooperative law enforcement.
    Third, we are building partnerships with industry. We have 
over 3,200 carriers, airlines, steamship lines, truckers that 
are participating with us in a carrier initiative program to 
stop dope from being put on board commercial conveyances. 
Working with us and law enforcement overseas, these carriers 
were instrumental in the seizure of over 60,000 pounds of 
narcotics over a 2-year period.
    We are now working with exporters, importers, shippers and 
others in the United States and in countries like Colombia and 
Mexico to expand this program.
    In closing, Mr. Chairman, and subcommittee members, I want 
to thank you for inviting me to talk about the hardworking and 
dedicated men and women of the Customs Service who are guarding 
our borders. These people were responsible for discovering 82 
percent of the heroin, 57 percent of the cocaine, 55 percent of 
the marijuana seized in this country last year--over 1 million 
pounds of illegal drugs.
    We have no more important job than protecting America's 
schools and America's communities from the scourge of 
narcotics.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Banks follows:]

    [GRAPHIC] [TIFF OMITTED] T6177.013
    
    [GRAPHIC] [TIFF OMITTED] T6177.014
    
    [GRAPHIC] [TIFF OMITTED] T6177.015
    
    [GRAPHIC] [TIFF OMITTED] T6177.016
    
    [GRAPHIC] [TIFF OMITTED] T6177.017
    
    [GRAPHIC] [TIFF OMITTED] T6177.018
    
    [GRAPHIC] [TIFF OMITTED] T6177.019
    
    [GRAPHIC] [TIFF OMITTED] T6177.020
    
    Mr. Mica. I thank you, Commissioner Banks, and also for 
your commitment and the service of our Customs officers in this 
effort. Now I'd like to recognize James Milford, Deputy 
Administrator of the Drug Enforcement Administration. Sir, 
you're recognized for 5 minutes.
    Mr. Milford. Thank you. Mr. Chairman, members of the 
subcommittee, I appreciate the opportunity to appear before the 
subcommittee today to discuss drug trafficking in the Caribbean 
theater and south Florida. First, I'd like to sincerely thank 
you and the other members of the committee for your continued 
support of DEA and its programs, both internationally and on 
the home front.
    You have seen firsthand the devastation caused by drugs 
that stems from the drug-producing and transit regions of Latin 
America and impacts the streets of our country. The 
international drug syndicates are far more organized and 
influential than any organized crime enterprise preceding them. 
Today's international crime syndicates have at their disposal, 
an arsenal of technology, weapons and allies, corrupted law 
enforcement and government officials, which enable them to 
dominate the illegal drug market.
    With the law enforcement pressure placed on the Cali 
traffickers' operations in south Florida and the Caribbean in 
the late 1980's and early 1990's, they turned to established 
smuggling organizations in Mexico to move cocaine to the United 
States. However, Colombian traffickers still dominate the 
movement of cocaine, from the jungles of Bolivia and Peru to 
the large cocaine hydrochloride conversion factories in 
southern Colombia.
    Most of these new groups have returned to the traditional 
smuggling routes in the Caribbean to transport their cocaine 
and heroin to markets in the United States and along the East 
Coast.
    Puerto Rico is easily accessible by twin engine aircraft, 
which can haul payloads of 500 to 700 kilos of cocaine. Ocean-
going fast boats make their cocaine runs in the dead of night 
to the southern coast of Puerto Rico. Puerto Rico's 
commonwealth status means that once a shipment of cocaine, 
whether smuggled by maritime, air, or commercial cargo, reaches 
Puerto Rico, it is not subjected to further United States 
Customs control.
    Today cocaine and heroin traffickers from Colombia have 
transformed Puerto Rico into the largest staging area in the 
Caribbean for smuggling not only cocaine, but heroin into the 
United States.
    Dominican immigrant groups have also gained control of a 
number of Puerto Rico housing projects which they utilize for 
drug trafficking using violence and intimidation in order to 
control the markets. In the past, the Dominicans' role in 
illegal drug activity was limited to participating in pick-up 
crews and couriers.
    However, the new breed of Dominican traffickers function as 
smuggler, transporter and also wholesaler. Dominican groups 
trafficking utilize wooden vessels and low profile boats to 
avoid radar. These boats are retrofitted with plastic fuel 
tanks which enable them to make their long range journey. Boat 
crews also rely on cellular telephone communications to further 
enhance their security measures.
    Dominican traffickers use sophisticated communications, 
clone cellular communications, alarm system and police 
scanners, to hide their activities from law enforcement. They 
provide a natural conduit for Colombian heroin to the large 
addict populations of New York and other parts of the country.
    The Bahamian Islands have also caused us tremendous 
concern. The Bahamas Island chain, which lies northwest of 
Puerto Rico and the Dominican Republic and just northeast of 
Cuba, has been a center for the smuggling of contraband for 
centuries. To counter that threat, the United States Government 
initiated Operation Bahamas and Turks and Caicos--OPBAT, as it 
is known, in 1982.
    This joint Bahamian-DEA-United States Customs interdiction 
operation, headquartered in Nassau, Bahamas, has had enormous 
success over the years. As you know, Mr. Chairman, you just 
visited that facility and talked with our people at that 
location. It has been a tremendous cooperative effort, 
particularly utilizing the Bahamian authorities, the United 
States Customs Service, the United States Coast Guard and DEA.
    Traffickers in the northern Caribbean alternate their 
trafficking techniques, using remote air strips and air drops 
to waiting fast boat vessels and maritime scenarios to smuggle 
cocaine. In October 1996, 6.5 metric tons of cocaine was seized 
from on-board the freighter Limerick, after Cuban officials 
searched the vessel at our request.
    Again, I might add to what Congressman Lincoln Diaz-Balart 
mentioned, this case emanated from an investigation which he 
has previously talked about. We targeted a vessel that was 
using Cuban waters, not necessarily the Cuban Government, as a 
shield.
    Another prominent method being used by the Bahamian and 
Jamaican transporter groups involves Colombian traffickers air 
dropping shipments of cocaine off the coast of Jamaica. 
Jamaican and Bahamian transporting groups then use what are 
known as war canoes, to smuggle their payloads of drugs into 
the Bahamian chain. And once they're into the Bahamian chain, 
they're home free.
    We're also very concerned about the new containerized 
shipping port facility in Freeport, Bahamas. The containers are 
not to be opened while in Freeport. However, this gives the 
traffickers another opportunity to use a port of entry as a 
staging point for narcotics entering the United States.
    Miami, as we all know, has always been the home of high 
echelon command and control personnel for organized criminal 
organizations from Colombia. In the early 1980's, thugs from 
the Medellin Cartel, known as the cocaine cowboys, brought 
their indiscriminate violence to Miami.
    However, programs such as REDRUM, a joint effort between 
DEA, Metro, and Miami police, convinced the violent traffickers 
from Medellin that they would be methodically hunted down. I 
might add that local and Federal cooperation in the Miami 
operation had a lot to do with the turning of the tide there.
    I'd just like to end by mentioning heroin. As we all know, 
heroin, as you mentioned, Mr. Chairman, is a big concern for 
the Orlando area. Just a few years ago, southeast Asian heroin 
dominated the East Coast. Colombian heroin was nonexistent in 
1962. However, by 1996, 62 percent of the heroin seized in the 
United States came from Colombia, up from 32 percent the year 
before.
    The average purity in 1996 was 71.9 percent, while some 
purchases registered as high as 95 percent. From New York to 
Miami, Colombian heroin is widely available and is extremely 
pure and cheap. The organized criminals who control the 
Colombian heroin trade have been able to establish their 
substantial market share through aggressive marketing 
techniques and cutting the price of a kilogram of heroin almost 
in half, from $150,000 to $90,000.
    The results of the surge of high quality heroin may best be 
seen in Orlando, where there were 31 overdose deaths in 1996, 
up 500 percent from 1994.
    In conclusion, 30 years ago we thought that traditional 
organized crime could never be subverted. Now it is a mere 
shadow of what it once was. Five years ago nearly everyone said 
that Miguel Rodriguez Orejuela and his accomplices in Cali were 
invincible. However, we see today that every one of these 
criminals from the Cali Cartel is either in jail or dead.
    We will leave each organization that rises to power the 
opportunity to move ahead, but we must continue to provide law 
enforcement assistance to foreign governments, to really 
counteract all of the problems that we have with drug 
trafficking.
    Thank you, and I'll answer any questions that you have.
    [The prepared statement of Mr. Milford follows:]

    [GRAPHIC] [TIFF OMITTED] T6177.021
    
    [GRAPHIC] [TIFF OMITTED] T6177.022
    
    [GRAPHIC] [TIFF OMITTED] T6177.023
    
    [GRAPHIC] [TIFF OMITTED] T6177.024
    
    [GRAPHIC] [TIFF OMITTED] T6177.025
    
    [GRAPHIC] [TIFF OMITTED] T6177.026
    
    [GRAPHIC] [TIFF OMITTED] T6177.027
    
    [GRAPHIC] [TIFF OMITTED] T6177.028
    
    Mr. Souder [presiding]. Thank you for your testimony and 
DEA's efforts. Adm. Saunders, if you'd go ahead and give us 
your testimony.
    Rear Adm. Saunders. Thank you, Mr. Chairman and members of 
the subcommittee. It's a pleasure to be here and represent the 
Coast Guard today. As was said earlier, I am the Commander of 
the 7th Coast Guard District, and I have responsibility for 
Coast Guard activities in the Southeast United States and the 
Caribbean. And I'm going to try and approach this from an 
operators point of view rather than from the point of view of 
somebody inside the Beltway.
    I have recently returned to Miami after being absent from 
an operational position for about 6 years. I have some 
observations that I'll share as I go along. Let me first put up 
a visual here to give you some idea of what the threat is as we 
see it with regard to cocaine.
    We think there are 608 metric tons of cocaine en route to 
the United States--plus or minus--each year. Against a 200 or 
300 metric ton demand. So you can see that if the producers of 
this poi- son are successful, there is more than enough cocaine 
to take care of the demand in this country. My colleague from 
the DEA has spo- ken of the rising flow of heroin. And, of 
course, there is still fairly robust marijuana trafficking 
through the Caribbean.
    We think about 63 percent of what comes across the 
Caribbean comes across in noncommercial maritime means, in 
small fast boats, as my colleague from the DEA spoke about, all 
the way up to some of the rather derelict coastal freighters.
    I'm not going to stress the interdiction point I made in my 
writ- ten or submitted oral testimony, but rather, would like 
to stress two other points, the first being that one of the 
things that I have noticed most significantly since being back 
in south Florida is that inter-agency cooperation has increased 
remarkably in the 6 years that I have been away. And I'd like 
to use perhaps the next slide as a rough talking point to 
illustrate that.
    Mr. Banks talked about some efforts ongoing in Puerto Rico 
and the United States Virgin Islands, as did Mr. Milford. All 
of us over the last 9 months operated under something we call 
Operation Frontier Shield. The Justice Department agency is 
under the Attor- ney General's Caribbean initiative. And the 
Customs Service, under Operation Gateway. We all have, however, 
focused our ef- forts under the leadership of the United States 
Attorney and the High Intensity Drug Trafficking Area [HIDTA] 
organization in Puerto Rico over the last 9 months, 
specifically, and have begun to develop information that helps 
us as interdictors, stop the flow of narcotics into Puerto Rico 
and the Virgin Islands, but is also giving the investigative 
agencies, the Federal agencies, the commonwealth agencies and 
the local police agencies in Puerto Rico the informa- tion that 
they need to dismantle the drug smuggling organizations and 
really begin to make them hurt.
    Seizure statistics are interesting. I'm not going to flash 
them up there. Let me say that we use as indicators of success 
of the pres- sure that we've put on them the reduced number of 
attempts--they haven't gone away, and this isn't scientific--
but there have been a reduced number of attempts to smuggle 
drugs into Puerto Rico and the Virgin Islands.
    We're beginning to see evidence of a shift of drug 
trafficking westward in the Caribbean, all of it, of course, 
bound for the Southeast United States, as has been suggested. 
But my point there being that the HIDTA agency, the cooperation 
among the agencies and the international cooperation in the 
eastern Caribbean are absolutely remarkable and are responsible 
for the success of our efforts.
    The second point I'd like to make hangs right on a hook 
that Mr. Milford hung up there for me. And that is that these 
smugglers are crossing the Caribbean by a variety of means. 
They are indeed using small, fast boats, up to 40 feet, two or 
three high-powered outboard engines. They can make the run over 
and back to those islands, any of the islands, in 24 hours.
    They're going up the western Caribbean, but they're going 
all the way up to Mexico in many cases. We can't detect them. 
We can't classify them once we find them. And if we do find 
them, we can't stop them. They are brazen. They absolutely 
won't stop even if we have jurisdiction to stop them.
    We need to invest in and field the technology that will let 
our folks out there on the water and in the air find these 
guys, classify them and then use some technical means to stop 
them once we find them.
    A final point about technology for the larger vessels. We 
are seeing an increased number of very sophisticated hidden 
compartments that take sometimes days for us to locate. The 
smugglers have begun to secrete the drugs in those hidden 
compartments by wrapping cocaine, for example, in plastic, 
double or triple wrapped in plastic, washing those bricks of 
cocaine in diesel fuel, and then putting axle grease around it 
to eliminate any opportunity for our sensitive equipment to 
detect the residue of those things before they put them into 
the compartment.
    We need to invest in the technology that will help us at 
sea, help the Customs Service at the border find these drugs, 
which are being hidden in much more sophisticated manners.
    The three points I make in my submitted remarks are: 
Interdiction is critical and must be done in the Caribbean, 
inter-agency and international efforts are working, and we need 
to continue to use technology to help us stay ahead of 
increasingly sophisticated, well-funded entities.
    Thank you very much for the opportunity, and I'd be 
delighted to take your questions.
    [The prepared statement of Rear Adm. Saunders follows:]

    [GRAPHIC] [TIFF OMITTED] T6177.029
    
    [GRAPHIC] [TIFF OMITTED] T6177.030
    
    [GRAPHIC] [TIFF OMITTED] T6177.031
    
    [GRAPHIC] [TIFF OMITTED] T6177.032
    
    [GRAPHIC] [TIFF OMITTED] T6177.033
    
    [GRAPHIC] [TIFF OMITTED] T6177.034
    
    Mr. Souder. Thank you much for your testimony, all of you. 
Before we move to questions, we've been joined again by Ms. 
Ros-Lehtinen, the distinguished Congresswoman from Miami, who 
would like to make a statement.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I want 
to commend you as well as Chairman Hastert for holding this 
hearing to examine drug interdiction efforts in my home State 
of Florida and in the Caribbean.
    As residents of south Florida, our delegation and all of us 
have been able to witness firsthand the scourge that drugs can 
bring to our communities. Drugs are responsible for a large 
part of the crime problem in Florida and throughout our great 
Nation. And more importantly, they are responsible for the 
destruction of many young lives who fall to the addiction of 
drug use.
    For geographic reasons, Florida and the Caribbean continue 
to be the preferred transit points for drugs to the United 
States. In recent months, we've seen, sadly, the evidence of 
this threat of drug trafficking increasing due to new modern 
technologies that are used by drug runners. The new equipment 
consists of modern maritime vessels, aircraft and modern 
communication systems that make our drug enforcement agents' 
interdiction efforts more difficult.
    The DEA and other drug interdictions agencies have to be 
commended for taking a very active approach to interdict drugs 
around the Caribbean. We want to congratulate them for their 
ongoing efforts. And much effort has been put into the 
interdiction of drugs in Puerto Rico, which is a favorite 
stopping point for drugs on their way to the mainland United 
States and other parts of the Caribbean.
    But as we have said many times in this subcommittee, which 
I serve on in other forms as well, the United States must take 
seriously the role that the dictator Fidel Castro plays in drug 
trafficking. Because without doing that, taking into serious 
light, we will never really be able to win the interdiction 
battle in the Caribbean area.
    There is mounting evidence that Castro has for many years 
and continues to be a key player in drug trafficking by 
allowing Cuba to serve as a stopping point for drugs. Over the 
past two decades, Cuba's involvement in drug trafficking was 
highlighted by several high profile indictments of Cuban 
officials which the Castro regime has refused to turn over for 
trial.
    In 1982 Cuban Vice Adm. Aldo Santa Maria, two Cuban 
diplomats as well as a Cuban intelligence officer, were 
indicted for actively coordinating and protecting drug 
transshipments to the United States. None have faced trial due 
to the protection provided to them by the Castro regime.
    Also in a 1993 Miami Herald article the United States 
attorney for the southern district of Florida has drafted a 
racketeering indictment against the Cuban regime for its active 
involvement in drug trafficking. And chief among the players in 
that drug connection were Raul Castro, Cuba's defense minister, 
and 15 other Cuban officials from the defense and interior 
ministries.
    Last year, also, some officers of the Drug Enforcement 
Agency in Miami declared that more than 50 percent of the drug 
trafficking entering the United States through the Caribbean 
actually goes through Cuba. Additionally, a south Florida TV 
station, captured drug traffickers freely entering Cuban air 
space and waters to flee United States law enforcement 
agencies.
    In 1987 the United States achieved convictions of drug 
smugglers who used Cuban military facilities and personnel to 
aid the trafficking of drugs from Colombia. And in other 
evidence is the convicted drug dealer Jorge Cabrerra who has 
reportedly told United States drug enforcement agencies of 
Cuban cooperation in drug trafficking, and has offered to 
cooperate in exposing Castro's role in illegal drug 
transshipment to the United States.
    In our Government Reform Committee, we will be examining 
the allegations that the owner of a charter travel service to 
Cuba sought contributions for the Clinton-Gore reelection 
campaign from this convicted drug trafficker during a meeting 
that the two supposedly held in a Havana hotel. And this is 
certainly worrisome, because it could mean that our 
Presidential campaign might have been tainted by drug money 
connected with the Castro regime.
    This is only a sample of much of the evidence over the past 
decade that clearly signals the Castro dictatorship's willing 
participation in illegal drug trafficking. And this evidence 
combined with Castro's longstanding efforts to harm the United 
States and his desperate need for hard currency defies the 
administration's assertion that the Castro regime is a 
cooperative partner in the war on drugs.
    Nothing could be further from the truth. And during the 
recent hostage crisis in Peru, it was revealed that Castro 
attempted to blackmail the Japanese government for millions of 
dollars in exchange for the tyrant's agreement to give asylum 
to the Shining Path terrorists who took over the Japanese 
Embassy.
    If Castro tried to blackmail the Japanese Government during 
this crisis, just imagine how much money he must exert from 
drug traffickers in exchange for the use of Cuban territory to 
escape the United States's interdiction efforts. I hope that 
the witnesses here today from various drug interdiction 
agencies will address Cuba's involvement in drug trafficking. 
And we urge them to take a more active approach in exposing 
Castro's drug ties.
    I thank the chairman for the time.
    [The prepared statement of Hon. Ileana Ros-Lehtinen 
follows:]

[GRAPHIC] [TIFF OMITTED] T6177.035

[GRAPHIC] [TIFF OMITTED] T6177.036

    Mr. Mica. I thank the gentlelady and would now like to 
recognize the chairman of the Florida delegation and also 
chairman of the Ways and Means Human Resources Subcommittee, 
Mr. Shaw from Florida.
    Mr. Shaw. Thank you, Mr. Chairman. I would like to express 
our appreciation to you and the Government Reform and Oversight 
Committee and the Speaker for highlighting Florida at this 
particular hearing today. And I'd also like to apologize to the 
witnesses and our guests for some of the shenanigans that are 
going on in the floor today.
    If you wonder why we're getting so many buzzers, we're not 
usually under siege like this, slave to our voting cards, but 
there are some unhappy Members down on the floor that are 
creating as many votes as they can get in order to get 
attention to their being neglected before the Rules Committee.
    I think that our witnesses at this particular panel have 
already highlighted the problems that we are having. In 
preparing for this hearing, my mind couldn't help but go back 
to the early 1980's, when this problem was really building up 
terribly in Florida and came to a head in the early 1980's. The 
good people of Miami finally rose up and called on the 
assistance of then Vice President Bush, who came to Miami, down 
at the Omni Hotel on Biscayne Boulevard and met with a capacity 
crowd and talked about the resolve of the Federal Government to 
wage war on drugs.
    As a result, over the years, and with the help and putting 
in place the military and the coordination of--recognizing, of 
course, the Coast Guard also as a partial military arm of the 
government--but getting the Navy and some of our sophisticated 
equipment that is available to us in place, the implementation 
of the posse comitatus bill, which we led the way in getting 
the military involved in the war against drugs, we were able to 
at least curb the tide, never really defeat those that would 
invade our borders with these illegal substances. But at least 
we were able to stem the tide. And over the next decade Florida 
became too hot, so that the drug smugglers were looking to 
other ways of coming into this country.
    That led us to where we are today. We're very, very 
concerned about what is happening and the enforcement and the 
intensive law enforcement that is going on in other places is 
making, once again, the preferred to coming into the United 
States through the Caribbean in through Puerto Rico and 
Florida.
    I was very pleased to hear about some of the good results 
that we're getting in Puerto Rico and some of the other areas 
and also the international cooperation that we're getting.
    But unfortunately success elsewhere might mean problems for 
us in Florida. You never can take your foot off of the pedal. 
It's like having your foot on the throat of a snake. You cannot 
release it and then go somewhere to fight another war, because 
that snake is going to rise up and bite you. And that's exactly 
what's happening.
    Some statistics that are tremendously of concern to me. 
Customs cocaine seizures in south Florida have doubled in 1996 
to approximately 75,000 pounds. Miami International Airport 
recently replaced Kennedy International in New York City as the 
prime seizure spot in America for heroin swallowers and 
smugglers.
    Florida experienced one third of all drug related private 
aircraft incidents in the United States during 1996. Admiral, 
you spoke of some of the equipment we need. That's not only the 
Coast Guard, but that's also in Customs and DEA. To give an 
example, to combat the diminution in resources away from 
Florida, I offered an amendment that passed the Ways and Means 
Committee as part of the Customs authorization bill which the 
House passed in May, to direct $5 million--just $5 million.
    On the whole scope of things that is not a huge amount to 
invest in funding to bolster the Customs marine effort in south 
Florida. If the funds authorized in my amendment are fully 
appropriated, the marine program in south Florida will return 
to its 1993 level. That's just returning to the 1993 level.
    We have a terrible problem now with the bad guys having 
faster boats than we have. I think, Admiral, you spoke of the 
number of motors they will put on the back of the boats. They 
have things that can outrun just about anything we have other 
than our aircraft. And we have got to put the necessary assets 
in place in order to do that. And the personnel is tremendously 
important.
    The next panel that we'll have today concerns itself with 
the internal conspiracies. And I specifically requested a panel 
to discuss this matter because the internal conspiracies are 
becoming a major avenue of bringing illegal drugs into the 
United States.
    For example, over the past 2 years, at the Port of Miami, 
there have been alarming increases of drug seizures related to 
internal conspiracies among port employees. Of the 53 drug 
seizures by Customs at the Port of Miami during fiscal year 
1996, 32 cases involved port employees. 32 cases out of 53. 
That's over half.
    And fiscal year 1995--37 of 54 seizures involved port 
employees. Therefore, over those two fiscal years, on an 
average, over 63 percent of all drug seizures at the Port of 
Miami involved port employees.
    These internal conspiracies are clever in ways that help 
the smugglers. They have been known to innocently swing a 
container in front of a surveillance camera in order to allow 
another container filled with drugs to pass through undetected. 
They also know which are the sharper Customs agents that they 
have to avoid.
    I'm going to ask that my full statement be put in the 
record, but I do want to go into----
    Ms. Ros-Lehtinen [presiding]. Without objection, so 
ordered.
    Mr. Shaw. Thank you, Madam Chairman. But I do want to read 
something that I think is absolutely an outrageous situation, 
and that is the number of port employees with criminal records.
    I asked that I be provided with the arrest records of 38 
Port Everglades employees. Of the 38 Port Everglades 
longshoremen, 19 persons had arrest records, out of 38. Of 
those 19 persons, they had a total of 73 arrests, including 14 
drug arrests.
    Let me just read the record, a rap sheet on three of our 
port employees who are in sensitive positions.
    Subject No. 1--and this is from the Port of Miami.
    ``Arrested for robbery, assault and battery, carrying a 
concealed firearm, possession of a firearm by a convicted 
felon, aggravated assault, possession of heroin with intent to 
distribute, possession of cocaine with intent to sell.
    ``Possession of heroin with intent to sell, grand theft, 
petty theft, uttering a forged instrument, forgery of a U.S. 
Treasury check, possession of cocaine, simple battery, 
aggravated battery, and petty theft.''
    That's just one of our dock workers.
    Subject 2 is from the Port of Miami.
    ``Arrested for immigration violation, cocaine possession, 
marijuana possession, aggravated assault, battery, loitering, 
prowling, narcotics equipment possession, aggravated assault, 
possession of a firearm in the commission of a felony, 
resisting arrest, obstructing justice, aggravated battery, 
burglary, and cocaine possession within 1,000 feet of a 
school.''
    Subject No. 3 was from Port Everglades.
    ``Arrested for armed robbery, assault with intent to commit 
murder, breaking and entering, disorderly conduct, shoplifting, 
burglary, dealing in stolen property, possession of cocaine, 
sale of cocaine, domestic violence.''
    This goes on and on. When we look at the alarming number of 
people that work in the docks in sensitive positions, who are 
inside the ring in which customs is supposed to be directing 
the traffic out of, it is absolutely amazing to me that these 
ports do not look at the rap sheets of those that are working 
for them, whether it be for the smuggling of cocaine or just 
stealing some of the things that are coming into these 
particular ports.
    I know we're going to be hearing testimony from a number of 
witnesses on the next panel, and they will be concerning 
themselves with these particular matters and some of the things 
that other port authorities have done.
    I would certainly hope that the good people in south 
Florida not only would cooperate with us in working to get some 
of the assets directed back to south Florida that Customs 
needs, that DEA needs, and that the Coast Guard needs, and the 
other law enforcement agencies.
    But also, I would hope that the elected officials in south 
Florida would just use some common sense in doing some 
screening of people who are in these sensitive positions, that 
are in a position in which it is extremely difficult to detect 
their smuggling of illegal drugs into this country.
    I know there is a vote on the floor, Madam Chairman, so I 
will yield back my time.
    [The prepared statement of Hon. E. Clay Shaw, Jr., 
follows:]

[GRAPHIC] [TIFF OMITTED] T6177.037

[GRAPHIC] [TIFF OMITTED] T6177.038

    Ms. Ros-Lehtinen. Thank you so much, Congressman Shaw. I 
would like to recognize Congressman Goss.
    Mr. Goss. Thank you, Madam Chairman. I was very interested 
in the testimony, and I do have some followup questions. I, 
too, have been captured by the voting on the floor.
    I would like to ask, Madam Chairman, that my full statement 
be included in the record.
    Ms. Ros-Lehtinen. Without objection.
    [The prepared statement of Hon. Porter J. Goss follows:]

    [GRAPHIC] [TIFF OMITTED] T6177.039
    
    [GRAPHIC] [TIFF OMITTED] T6177.040
    
    [GRAPHIC] [TIFF OMITTED] T6177.041
    
    [GRAPHIC] [TIFF OMITTED] T6177.042
    
    [GRAPHIC] [TIFF OMITTED] T6177.043
    
    [GRAPHIC] [TIFF OMITTED] T6177.044
    
    [GRAPHIC] [TIFF OMITTED] T6177.045
    
    [GRAPHIC] [TIFF OMITTED] T6177.046
    
    [GRAPHIC] [TIFF OMITTED] T6177.047
    
    [GRAPHIC] [TIFF OMITTED] T6177.048
    
    Mr. Goss. I will look forward to the opportunity to come 
back, if I may.
    Ms. Ros-Lehtinen. Thank you so much.
    If I could ask you gentlemen a question before we have to 
leave for voting.
    As I had said in my opening statement, there were some 
local TV station cameras from Miami who captured some drug 
trafficking entering into Cuban waters. They were being pursued 
by our guys, because of the possibility of being involved in 
drug trafficking and then, as soon as those boats and, in other 
cases, planes, entered Cuban territory, we had to turn back.
    Can you share with us any sense of frustration that you 
have felt with this? What other recourse do we have available 
to us in these circumstances?
    Mr. Milford. Well, it's been a tremendous frustration for 
us to have the Cuban shield, so to speak, which is really used 
by traffickers very effectively, not only for air traffic, but 
also for maritime drug trafficking.
    What they normally do when they're coming up through that 
passageway is come up over Cuba to avoid radar. That's not 
necessarily saying that there's any collusion with the Cuban 
Government in these instances. What it is, is the Cuban 
Government has no way to respond.
    In instance after instance, day after day, we see that. For 
example, the planes coming up off of the north coast of Cuba, 
coming up to make an air drop at a specific location, will come 
up over Cuba and really just use that.
    The other two areas we have seen is that, a lot of times, 
with vessels that we know are going to make a drop of drugs at 
a specific location, will often do it right at the 12-mile 
limit and if, in fact, we pursue them at those locations, they 
will run into Cuban waters and, frankly, at this point, there 
is no way for us to continue on.
    The third, and the admiral alluded to it, the coastal 
freighters that we're seeing most recently. That is also a 
concern, because a lot of times now, these coastal freighters 
are seemingly normal vessels with normal cargo coming up out of 
South America.
    They contain legitimate cargo and stop at many ports. One 
of the ports they stop at is Havana. What they will do, then, 
is, after they drop off their cargo. In fact, Jorge Cabrerra 
was a perfect instance of that; the vessel which he was 
receiving his cocaine from would go into Havana Harbor, drop 
off its legitimate goods, and then come out of the 12-mile 
limit, up along the coast. The ship would actually use an old 
technique, which we all know in south Florida, as the mother 
ship technique, with boats carrying the drugs off of this 
vessel, onto a smaller vessel, and into the Keys.
    Ms. Ros-Lehtinen. Thank you. Let me ask a followup question 
related to that. Well, Mr. Mica is here, and I've got to go 
vote.
    Mr. Mica [presiding]. I apologize. Someone has got their 
feathers ruffled today, and are going to help us in our 
exercise program, get us in shape here. We haven't done this 
for a while.
    I guess that Ms. Ros-Lehtinen was asking questions about 
the Cuba connection. I might ask if you could, was someone 
going to expand on that?
    Mr. Milford. Sir, I had talked about three areas--the use 
of Cuba as a shield by air traffic, the use of the Cuban waters 
as a haven to go back into if they were being pursued, and the 
use of coastal freighters as a stopoff point prior to actually 
dropping off their drugs.
    Mr. Mica. When I was there several months ago, I went down 
to the--what is it? It's the last island. Inagua, greater 
Inagua. Yes. And I flew in the Coast Guard helicopter. We went 
right up to the, I guess it's the 20-mile limit. We did view 
the freighters and the problem of them zigzagging in and out.
    Have the Cubans been cooperating with us when they do enter 
the Cuban waters now? I came back, and my report detailed the 
cooperation with the Limerick, where it was towed in. They did 
assist our agents. I understand DEA confirmed that.
    But what about these transports that go in and out of those 
waters? Are they assisting us in pursuing them, or do they have 
that capability?
    Rear Adm. Saunders. Well, I don't know, Mr. Chairman, 
whether they have the capability. When we have information that 
a vessel is bound for a Cuban port and may have drugs aboard, 
we pass that to the Cuban Government and they regularly report 
back that they have inspected the vessel and have found no 
drugs.
    Whether they have given it a good, thorough inspection or 
not, we don't know.
    Mr. Mica. If you report a suspect vessel that is zigzagging 
or seeking haven in Cuban waters from international waters, are 
you getting a response? Are they assisting us?
    Rear Adm. Saunders. We're getting an answer from them if 
the vessel is in the vicinity of a major port, like Havana. If 
it's in some remote area of the Cuban coast, they are generally 
not able to respond.
    Mr. Mica. They don't have the capability of responding?
    Rear Adm. Saunders. No, sir, they don't have the 
capability. I don't know whether it's they don't have the 
capability or willingness.
    Mr. Mica. Is that your assessment? That was my next 
question. Is it the willingness or the capability?
    Rear Adm. Saunders. I don't have an answer to that 
question.
    Mr. Mica. Is there any evidence of a coordinated effort to 
assist these traffickers?
    Rear Adm. Saunders. I have asked that question of our 
intelligence people, and the Coast Guard has nothing but 
anecdotal information about any collusion on the part of the 
Cuban Government. We have no evidence that the Cuban Government 
is engaged in facilitating smuggling drugs.
    Mr. Mica. Mr. Milford, what is your intelligence?
    Mr. Milford. I was in south Florida, I was the special 
agent in charge of Miami when the case of Jorge Cabrerra went 
down. I was involved with every aspect of that case and was 
intimately familiar with it.
    Mr. Cabrerra initially reported to us that, in fact, there 
was collusion with the Cuban Government. We were skeptical of 
that information and, frankly, did an indepth investigation and 
found that, frankly, he was lying and misleading us for his own 
gain.
    We looked at it very thoroughly. In fact, the investigation 
which led to the seizure of the Limerick with 6.5 tons, which 
the Coast Guard and then subsequently the Cuban Government 
participated in, was another aspect of that investigation.
    What we learned in that investigation, and what Mr. 
Cabrerra did was use Cuba as a shield. They used it as a port 
of entry, seemingly for legitimate cargo, with these coastal 
freighters.
    Frankly, as Adm. Saunders mentioned earlier, these coastal 
freighters are not the normal mother ships that we can remember 
back from the 1980's. These are very highly sophisticated 
freighters, as far as hidden compartments.
    Sometimes, even if we know that drugs are on these vessels, 
it takes us upwards of 2 weeks to locate these compartments, 
and this is exactly what we had in this instance.
    In fact, we seized some drugs off the Limerick, then we 
seized more drugs a couple days later and more after that. So 
what I'm saying to you is that we had a very indepth 
investigation and, based on that investigation, we could see no 
collusion with the Cuban Government.
    Mr. Mica. The other thing that I found, a new technique of 
the drug traffickers, is that some of the cocaine is coming 
out, now, of Jamaica, as a staging area, I guess, from Colombia 
and points south, in what is termed ``Jamaican canoes.''
    I believe they are wooden vessels that are not picked up by 
radar or other means. And then, they have large fuel bladders, 
I believe, and they can bring up to a ton of cocaine into other 
areas.
    Are they going into Cuba as a refuge area, or primarily the 
Bahama Islands?
    Mr. Milford. Primarily, the Bahama Islands. I might point 
out that these are not the normal canoes which we think of 
going up and down a river in Georgia or the southern part of 
the United States in a very tranquil setting.
    These are high-speed vessels that are as fast as what we 
know as the ``go-fast'' vessels that are utilized by these 
traffickers. What normally happens is, the drugs are brought in 
from Colombia, staged in Jamaica, and then moved up into the 
Bahama chain by these canoes.
    Mr. Mica. One of the things that concerns me is our 
capability of detecting these craft in the water. It's my 
understanding that most of the P3 coverage that Customs had has 
now been removed. Is that correct, Mr. Banks?
    Mr. Banks. Well, Mr. Chairman, we fly about 1,800 hours 
over the source area, about 1,400 hours over the transit area, 
and about 1,000 hours over the border areas, so it isn't all 
removed, but there's no question it's been reduced.
    Mr. Mica. How does that compare to, say, 1990, 1992?
    Mr. Banks. Let me put it this way. We took a 25 percent 
reduction in our aviation program in 1995 and a 50 percent 
reduction in our marine program, so there's no question it was 
definitely impacted as a result of that.
    Mr. Mica. So your capability is about cut in half?
    Mr. Banks. It's significantly reduced. The other thing that 
we have done most recently, though, is we've gotten surplus C-
12s, four surplus C-12s from the military, and we're equipping 
them with special instruments, primarily for the maritime 
detection.
    So we are kind of hopeful we are going to see some better 
production from them.
    Mr. Mica. My next question would be, do you have the 
adequate personnel to man those craft?
    Mr. Banks. Obviously, we would like to have a lot more 
flight hours and we would like to have, you know, more people 
out there with our marine fleet.
    Mr. Mica. I was told we also had AWACS capability, where we 
had over-flight capability to detect what was going on, and 
that one of those AWACS were moved to Alaska to look at 
pipeline spills or something like that. Can anyone confirm 
that?
    Mr. Banks. We have a total of eight P3s. Four of them are 
equipped with radar guns. They are still in place, you know, 
flying primarily with source area.
    Mr. Mica. What about AWACS? Do you know about AWACS?
    Mr. Banks. That would be military operated with E2s.
    Rear Adm. Saunders. E2s or E3s. No, sir, Mr. Chairman, I 
can't answer that with any authority. I can tell you that, 6 
years ago, when I was there, there was a lot of AWACS coverage 
over the Caribbean itself, and that is not there.
    Mr. Mica. It's not there.
    Rear Adm. Saunders. It is not there.
    Mr. Mica. OK. That's my information, that that has been 
moved to other responsibilities.
    One of the other things that disturbed me, and maybe DEA 
can--who has fixed-wing aircraft, DEA? What do you have?
    Mr. Milford. I think we both do.
    Mr. Mica. What do you have, sir?
    Mr. Milford. We have several aircraft we have removed. I 
think what you are referring to is the aircraft, because of 
resource shortages that we had to remove from the Bahamas.
    Mr. Mica. Yes. From the top of the Bahamas down to the 
bottom where I was, was about the size of California.
    Mr. Milford. Right.
    Mr. Mica. What capability do you have for over-flight now?
    Mr. Milford. What we have now are aircraft that are staged 
out of south Florida, out of Miami airport.
    Mr. Mica. What do you have staged in the Bahamas?
    Mr. Milford. We have nothing at this point staged in the 
Bahamas.
    Mr. Mica. An area the size of California, you have nothing? 
Didn't I just hear testimony from Mr. Banks that they're now, 
instead of going into Cuba, we got into where the drugs are 
going into the islands around the Bahamas; is that correct, Mr. 
Banks?
    Mr. Banks. That is correct.
    Mr. Mica. OK. And you have nothing staged from the Bahamas?
    Mr. Milford. What we've done, Mr. Chairman, is staged the 
helicopters for fast response from those locations, but we do 
not have any fixed-wing aircraft actually staged in Nassau or 
in the Bahamas at this point.
    Mr. Mica. They've been taken out?
    Mr. Milford. Yes.
    Mr. Mica. OK. Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman. Admiral Saunders, in 
his testimony, Speaker Gingrich basically painted a picture of 
a drug policy in disarray. Yet you have stated that inter-
agency cooperation has improved dramatically under the 
leadership of the Attorney General and that cooperation is 
remarkable.
    Maybe you can help some of us who are not as close to it as 
you are to explain why we have such differing opinions.
    Rear Adm. Saunders. Thank you for that question. There is 
certainly, from the Speaker's comments, there is no unity of 
command, as you described in World War II. There is no single 
person that is in charge of the drug war.
    However, in the mid-to-late 1980's, from my experience, 
what we had was a bunch of independent agencies, each of whom 
was fairly strong in resources and thought they could fight the 
entire drug war alone.
    We have since found that that is not the case. I can't 
describe for you what has caused the agencies to work more 
closely together.
    I know that right now, my experience, returning to the 
field, is that I have never seen cooperation at a higher level. 
There is absolutely no jealousy, there are no barriers with 
information. Information is freely shared.
    All the agencies have discovered that, by sharing the 
information, very often they find that the other guy had pieces 
of the puzzle that they had been trying to put together.
    Those sort of successes have bred further cooperation at 
the analyst level, at the investigator level, and it is really 
leading to what I think is the foundation for good results 
against the organization, and that is the ability to dismantle 
the organization, not just to interdict the truck drivers who 
are driving these fast boats.
    That's important. We need to stop the flow of drugs. But we 
absolutely need to be able to take their organization apart, 
get to the leadership, get to their money, get to their command 
and control, to the communications.
    And it is this inter-agency cooperation at the analyst 
level, at the information level, that is letting us do that.
    I would ask my colleagues to answer and see if they don't 
have a different thought.
    Mr. Barrett. Mr. Milford, do you concur in that?
    Mr. Milford. I do concur in that. And, frankly, at this 
point, the cooperation--not only at the Federal level, with the 
FBI, the Customs, the Coast Guard, and the various agents, but 
just as important, at the State and local level--is 
outstanding.
    For example, in south Florida, and throughout Florida, most 
of our investigations, almost 95 percent of our major 
investigations, involve other agencies, and most of the time, 
State and local officers.
    We have forged task forces together, and because of this 
cooperative effort, and it benefits everybody.
    Increases manpower--I firmly believe that we don't only 
provide a service to the local law enforcement agencies, but, 
we also learn a lot from them.
    So it is a cooperative effort. We have been able to share 
resources and assets. And I think, in the long run, it is 
working much better than it has in the past.
    That's a tribute to everybody, I think. We've been doing 
this a long time and I believe, at this point, we are getting 
it right.
    Mr. Barrett. Mr. Banks.
    Mr. Banks. Yeah. I would like to totally endorse these 
remarks.
    I will say that, when you're in the aviation and the marine 
environment, the handoffs between agencies are virtually 
seamless at this point. We are totally coordinated in terms of 
our detection capabilities and the followthrough.
    As Adm. Saunders said, our objective isn't just bringing it 
down. We want to take it all the way through to the ultimate 
destination.
    DEA cross-designates 1,350 of our agents. As Mr. Milford 
has said, it is very unusual now to have an investigation that 
is not a multi-agency investigation. I think that there is an 
incredible level of cooperation.
    I think the really good part is, we each have kind of 
unique talents and skills, and bring a different point of view 
on some of this, and bringing it together actually makes us, I 
think, operate better, as a whole.
    Mr. Barrett. Mr. Banks, what do you think is the source of 
the charges of rudderlessness or lack of coordination?
    Mr. Banks. I don't know. Part of what I attribute this to 
is the lack of assets that we've got. We don't have any choice 
but to cooperate.
    Mr. Barrett. Mr. Milford, why do you think the attacks are 
being levied against you and the other agencies?
    Mr. Milford. Well, if you look at it at the field level, I 
think it is really coordinated very well. I think a lot of 
times, when we get up here within the Beltway, there's a lot of 
different opinions.
    Being a field person and an operations person, I must say 
that, in those venues, we get along extremely well. That's not 
to say that Sam Banks and I, or Adm. Saunders and I, sitting in 
Washington, don't understand each other. But sometimes there 
doesn't appear to be the same type of coordination that there 
does in the field.
    In the field, it's hands on, taking care of business. I can 
remember the days in the early 1970's where, actually, Customs 
was on one side and we were on the other, pulling a defendant's 
arms back and forth as far as who was going to arrest him. 
That, however, is in the past.
    Now, we are passing information to each other--we are 
passing information to Customs that leads to seizures, and it's 
not credit, it's the right thing to do.
    We are passing information to the Coast Guard that leads to 
seizures on the high seas. That's the right thing to do.
    What we are getting back is investigative information which 
we then use to pursue the entire case and take out the command 
and control people that were expecting the drugs. We then 
develop information which we pass to our counterparts in 
Colombia, where I think they've done a fantastic job in using 
the information which we have given them, to go after the heart 
of some of the mafia leadership.
    Mr. Barrett. Admiral Saunders, same question, essentially. 
Do you think that the charges of lack of coordination are based 
on an outdated view of what you do, or do you think they are 
politically founded? What is your analysis?
    Rear Adm. Saunders. I agree with my colleagues that, at the 
field level, things are working very well. If we are guilty of 
anything at all at the field level, frankly, it's from time to 
time, in planning something, we forget to include the other 
agency. That's just in the haste to get something done.
    That's the only criticism that I would levy against any of 
us, and my organization is certainly very guilty of that.
    Let me suggest, though, that the Speaker painted a picture 
of a nation at war, and we have, for years, characterized this 
as a drug war.
    With all due respect to all the members of the committee, 
we have not declared war on this scourge at all. We are 
involved in a skirmish. We haven't gotten the national will to 
put the resources out there to sustain a realistic warlike 
effort in order to stop it.
    We're not at war. We're fighting a holding action right 
now, in my opinion.
    Mr. Barrett. Specifically, where do you think we need more 
resources?
    Rear Adm. Saunders. Well, I frankly think we need more 
resources, in order to have a realistic effort, in the transit 
zone. I think we need to put some more effort into investment 
in technology to make detection of these things possible.
    I can't comment at all on any of the demand reduction 
techniques. I don't know what is effective. That's not my 
ballgame.
    Eventually, we have got to get the cooperation of the 
countries that produce the narcotics. We have to give them some 
way to have a viable economy so that they can substitute for 
the production of these poisons, and have a legitimate economy, 
so their citizens can have some hope, without having to sell 
cocaine or heroin or marijuana.
    Mr. Barrett. Thank you. I think my time has expired.
    Mr. Mica. I thank the ranking member. I would like to yield 
now. We have the chairman of the House Intelligence Committee. 
I am going to yield to him for 5 minutes, and then we will be 
joined, also, by a Senator from our State, and we also have the 
chairman of the House Criminal Justice Subcommittee, who wanted 
to participate.
    You are recognized, Mr. Goss, for 5 minutes.
    Mr. Goss. Thank you, Mr. Chairman.
    It's very interesting, Admiral, to hear your statement, 
that we are in a skirmish. I think that's one of the reasons 
why we aren't doing better, and I think that's what the Speaker 
was addressing, that he wants a bigger commitment from the 
Nation and more awareness, which is one of the reasons why 
we're doing this.
    I agree with your assessment that interagency cooperation 
in the field is better, and I am very pleased to hear it, 
because I remember it wasn't too long ago we had the director 
of one of the agencies heavily involved, pointing fingers at 
another agency involved, on a TV tabloid show, one of those 
``60 Minutes'' or something, show, saying, ``Oh, wow, these 
guys are really messing up.''
    That's not helpful and, if it's true, it needs to be 
resolved, not necessarily on a TV tabloid show.
    So I think you're right. We've come a long way. But I think 
we've got a long way to go.
    There are some things that have been said in your testimony 
that I particularly wanted to talk about, because the evidence 
is we've got too many of our teens involved in drugs today; the 
evidence is we have more than we've had before. That means 
we're losing. We have been winning in other areas, but we've 
got to win it all.
    The questions that I wanted to talk about--and I'll stay 
away from the policy questions, because I don't think that's 
your bag here today.
    I know there is serious trouble with our friends and allies 
in Colombia because of a policy problem down there on the 
certification process. I'm not going to ask about that, but I 
am going to ask about the question of information.
    You folks are in the business of interdiction. I know that 
interdiction is mostly successful when you have good 
information. When you have good information, you put the assets 
where they need to be, you catch the people you want to catch, 
the time is used wisely, the dollars are used wisely, and there 
is a high achievement rate.
    When you don't have good information, that is not the case. 
I would guess that most of the busts you've had have come from 
good information, rather than random hits.
    My question is this. Do you have the information, the 
architecture you need to provide the information you need at 
the time, in the amounts and quantities to use the equipment 
that you've got and the assets that you've got now, and those 
that we might be able to provide you if we do our job here? Do 
you have enough information?
    I'm going particularly back into the country team area, 
because obviously, we're dealing with something that's starting 
on foreign shores, or in other areas.
    I would appreciate any comments you might have. Mr. 
Milford.
    Mr. Milford. Yes, sir. I will use Colombia, since you 
brought it up as an example.
    Colombia is an example where it has taken a long time to 
develop the kind of a relationship that we have in that 
country.
    With the partnership that we have developed with General 
Serrano and the Colombian national police, we not only pass 
information with the certainty that it's going to be acted 
upon, in most cases--and again, they have had problems, as most 
countries do--but we pass information on a daily basis to them, 
which is acted upon and used in investigative techniques.
    That is exactly what happened with the Cali mafia, Gilberto 
and Miguel Rodriguez, Jose Santa Cruz, and so on.
    The most important process in this is, after the 
investigation in Colombia, seeing a return of information that 
we can use to act upon investigations back in the United States 
and, in some instances, pass to the Coast Guard or pass to the 
Customs Service.
    Now, unfortunately, that is not happening in every area, as 
you well know. That is what we are striving for. That is the 
best-case scenario.
    Frankly, I believe very strongly that we need to push these 
countries in these areas to ensure that they continue to do 
this. Or we have to move to the next step, and I leave that up 
to the policymakers.
    Mr. Goss. Mr. Banks.
    Mr. Banks. Congressman Goss, I doubt that we are ever going 
to get as much information as we want or that we need, in order 
to be able to do this job.
    However, I will say that, in some ways, the information is 
getting better, in addition to the law enforcement information 
that we get through DEA and with our agents working with 
confidential informants.
    One, the Title III, the wiretap operations are absolutely 
vital to really succeeding with this effort.
    Two, and probably the biggest surprise to us, is we started 
building partnerships with industry. I mentioned it in my 
earlier testimony. We've tied in with the airlines. We have 
3,200 carriers we're bringing in.
    We just made a trip down to Colombia with support of DEA in 
which we went in and we had sizable meetings with exporters, 
importers, port authorities, carriers, everybody involved in 
this transportation process.
    And, one, we're trying to improve the security of their 
operations and, two, we're trying to build in an information 
flow.
    The airlines, steamship lines gave us information--they 
either acted on or gave us information, to us or foreign law 
enforcement authorities, that resulted in 60,000 pounds of 
narcotics seized in a 2-year period, 1995 and 1996.
    So there is intelligence and information that can be 
achieved at all levels of this process, and we are trying to 
push that envelope as hard as we can.
    Mr. Goss. Adm. Saunders.
    Rear Adm. Saunders. Thank you, Mr. Goss. I told you at the 
outset, I take this from the point of view of the operator and, 
from an operator's point of view, we will never have all the 
information we really want to have.
    We are doing very well right now. From a Coast Guard 
perspective, in our 1998 budget request, we have a number of 
additional positions for investigative agents to add to the 
maritime side of the investigation.
    I know that the CNC over in CIA is working, and the 
counter-narcotics cell over in CIA is very aware of the 
shortage of human intelligence that we're all crying for, and 
they're working on improving that.
    I think we are getting the support we need there. We are 
adding some things to our pot, and I think we are going to do 
pretty well.
    Mr. Goss. Thank you. I would love to have the opportunity 
to followup. My time has run on this. I'm particularly 
intrigued about what it is you're going to look for from the 
intelligence community in terms of technology to deal with 
stopping these 40-footers. I would like to hear more on that 
subject sometime.
    I thank you very much and I appreciate what you gentlemen 
do, and I mean that from the bottom of my heart.
    Mr. Mica. I thank Chairman Goss.
    Without objection, I ask that a written statement submitted 
by Senator Grassley, chairman of the Senate International 
Narcotics Control Caucus, be submitted for the record.
    Without objection, so ordered.
    [The prepared statement of Hon. Charles E. Grassley 
follows:]

[GRAPHIC] [TIFF OMITTED] T6177.049

[GRAPHIC] [TIFF OMITTED] T6177.050

    Mr. Mica. It is my pleasure now to recognize for either a 
statement or for questions the senior Senator from Florida, the 
Honorable Bob Graham. Welcome, Senator Graham, and you are 
recognized.
    Senator Graham. Thank you very much, Congressman. I want to 
express my appreciation to you for organizing this hearing, 
this opportunity for us to become better informed and share our 
concerns with leaders who have the opportunity to make a 
positive impact on the drug issue in our State of Florida and 
in our neighborhood of the Caribbean.
    I would like to ask, if I could, some questions about the 
current status of the High-Intensity Drug Trafficking Area 
Program.
    There was a great deal of concern, 3 or 4 years ago, about 
what was happening in Puerto Rico and that region of the 
Caribbean, that it had become a new soft underbelly for drug 
trafficking. Based on that concern, a HIDTA was established in 
Puerto Rico.
    I wonder if you could give us--anyone who would care to 
comment--an evaluation of what is happening in Puerto Rico and 
that immediate area, and particularly the role that the Puerto 
Rican HIDTA has played.
    Mr. Milford. Senator, I think we all could comment on 
exactly what we have done--I think we have put effective 
programs in place.
    First of all, from the Justice agencies, we have developed 
a coordination mechanism between the FBI and DEA with regard to 
investigations on the Island of Puerto Rico.
    We have also coordinated and worked our investigations with 
Customs, who has a separate program, as well as with the Coast 
Guard, who has their program down there. These programs really 
interlock and intermesh, and what we have is a coordinated 
mechanism as a result of the HIDTA approach.
    Senator Graham. Do you think that, based on that 
coordinated mission, that you have had some impact on 
suppressing the use of that part of the Caribbean for drug 
trafficking?
    Mr. Milford. I think we have. I think we can do much 
better. This is going to take some time. Frankly, if we're 
talking about with DEA, we are doubling our resources in Puerto 
Rico over the next year-and-a-half. That makes a big difference 
for us, just as far as investigative ability.
    We are putting offices, for example, in Ponce, where we 
were never active before. We are running into some roadblocks, 
just because of the volume of the traffic.
    But I think, again, that it is making a difference. We are 
coordinating. We are working very closely with the Attorney 
General and other officials with Treasury and with 
Transportation, and it is working out, and I think it has all 
the marks of success.
    Mr. Banks. Yes. Senator Graham, I would like to echo that. 
I think the HIDTA has been very successful, especially the 
intelligence sharing component.
    The cooperation that we got when we put 77 people--we moved 
77 people into Puerto Rico in the last 2 years--a great deal of 
that was due to the Government of Puerto Rico actually deciding 
to fund more enforcement operations and efforts and personnel 
for us.
    The linkage that we got on the coordination end in Puerto 
Rico with JTF and with our DIOC for the air and the marine 
interdiction, as I was saying earlier, is virtually seamless.
    So we are making progress. We've still got a huge threat 
there.
    Senator Graham. Using that recent experience in Puerto 
Rico, where there was a serious problem, an organized response 
with the HIDTA initiative being a key element of that, and now 
some indications of success, I would like your comments as to 
what role a HIDTA might play in the central Florida area.
    There have been some distressing statistics that would 
indicate an increase in drug activity in that part of our 
State.
    Do you believe that the establishment of a HIDTA there or 
an expansion of the existing HIDTA that covers the southern 
part of the State, to also incorporate central Florida or the 
I-4 corridor, would have potential for similar positive results 
as your recent experience in Puerto Rico?
    Mr. Milford. Senator, I think anytime that we can infuse 
resources into an area that is having the problems at the 
magnitude of Orlando, and the Orlando area, it will make a 
difference.
    We are looking, over the next year--with the help of this 
subcommittee--to double the size of our office in Orlando.
    I think with the attention that a HIDTA or any type of 
coordinated approach, task forces accomplish what they need to, 
which is an infusion of resources into an area.
    We intend to continue to work with not only the other 
Federal agencies in the Orlando area, but also the State and 
local agencies, to turn that tide and to make a difference.
    Mr. Banks. Senator Graham, I concur with that, and we enjoy 
working in that environment with a HIDTA in middle Florida.
    I would say on that, that I hope when we establish this, we 
establish it with the necessary funding, because we're into a 
situation where we're robbing Peter to pay Paul. We're having 
to just move resources from a different priority to deal with 
that. That would be my only concern, is for us to be able to 
support it and support it well.
    Senator Graham. Thank you, Mr. Chairman. I see my time is 
up. I appreciate this opportunity to have participated.
    Mr. Cummings [presiding]. Congressman Barr, did you have 
some questions?
    Mr. Barr. Inevitably.
    Mr. Cummings. You might want to wait for the next panel. 
It's up to you.
    Mr. Barr. Where are we?
    Mr. Cummings. We're at the end of this panel.
    Mr. Barr. I'll wait until the next panel.
    Mr. Cummings. All right. We'll move on to the next panel. 
Thank you very much.
    Will the next panel come forth, please?
    The next panel is Peter Girard, Mike Sinclair, James 
Wallwork, Edward Badolato, and Art Coffey. Our custom is to 
swear in the witnesses.
    [Witnesses sworn.]
    Mr. Cummings. Thank you very much. Let the record show that 
the witnesses answered in the affirmative.

 STATEMENTS OF PETER GIRARD, GROUP SUPERVISOR FOR CARGO THEFT, 
MIAMI SEAPORT, OFFICE OF INVESTIGATIONS, U.S. CUSTOMS SERVICE; 
MIKE SINCLAIR, CHIEF, MIAMI SEAPORT CARGO INSPECTION TEAM, U.S. 
 CUSTOMS SERVICE; JAMES H. WALLWORK, COMMISSIONER, WATERFRONT 
 COMMISSION OF NEW YORK HARBOR; EDWARD V. BADOLATO, CHAIRMAN, 
      NATIONAL CARGO SECURITY COUNCIL; AND ARTHUR COFFEY, 
  INTERNATIONAL VICE PRESIDENT, INTERNATIONAL LONGSHOREMEN'S 
                          ASSOCIATION

    Mr. Girard. Mr. Chairman and members of the subcommittee, I 
thank you for inviting me here to speak before you today.
    Mr. Cummings. First of all, I want to thank you all for 
being here. Because we have a kind of limited time schedule 
and, as a matter of fact, the House is now out, we are trying 
to get out of here by 4 o'clock, so I would just ask you to be 
kind of brief, if you can. Thank you.
    Mr. Girard. All right, sir.
    From August 1990 to October 1995, I supervised a group of 
Customs special agents dedicated to the problem of combatting 
narcotics smuggling, internal conspiracies at the Port of Miami 
and the Miami International Airport.
    The strategy that we employed was twofold.
    The first was to penetrate existing internal conspiracies 
in international airlines, shipping companies, and related 
service industries.
    To accomplish this objective, it was necessary to utilize 
the services of these groups. We became the drug traffickers 
that needed the ability of the internal conspiracy to smuggle 
the drugs which we provided without Customs intervention.
    We sent shipments of cocaine from foreign countries to 
destinations in the United States. These shipments were 
diverted by the internal conspirators and delivered to 
undercover agents in Miami, Puerto Rico, New York, and Alabama.
    In one investigation, a source of information was developed 
that led to contact with cruise ship dock workers who offered 
to remove suitcases from cruise ships when they stopped in 
Miami.
    Contact was made with the government of the Cayman Islands, 
who offered to assist us in arranging for suitcases of sham 
cocaine to be smuggled on board the cruise ship. Two agents 
then took the cruise departing from Miami.
    After a stop in the Caymans, they were contacted by a crew 
member who took the suitcases from their cabin. The suitcases 
were eventually delivered by a dockworker who smuggled them off 
the vessel.
    The crew member, dock worker, and three other accomplices 
were arrested upon the delivery, and convicted in Federal court 
for conspiracy to smuggle cocaine.
    In some investigations, more than one shipment was sent to 
further the investigation, identify the organizational members, 
and gather evidence.
    These types of investigations, while being very productive, 
are time-consuming and expensive. The violators must, of 
course, be paid for their activity. The cooperation of the host 
country, where the sham load is placed on the international 
conveyance, be it a ship or aircraft, is necessary. Issues of 
sovereignty must be dealt with, as well as those of interagency 
cooperation.
    The second objective of our group was to counter the 
efforts of those organizations that actively sought to identify 
existing internal conspiracies to utilize or to find employees 
to corrupt.
    In this, we became, in an undercover capacity, the members 
of the internal conspiracy, offering our service to move 
narcotics across the border without Customs interference. For 
this service, we charged a fee.
    The funds generated from this activity, over $3.4 million, 
were used to offset the expenses from the investigation efforts 
to penetrate the existing internal conspiracies above.
    During the period I supervised this investigative group, 
274 violators were arrested and over $10 million in assets were 
seized and forfeited, in addition to the proceeds generated.
    I am currently the supervisor of an investigative group 
that targets organized cargo theft and the export of stolen 
cargo from the United States. As previously referenced, the 
conspiracy situation is well evident.
    The Port of Miami has no areas that are considered limited 
access, and workers there are free to move their personal 
vehicles to all areas of the port.
    The port, unlike Miami International Airport, does not have 
a color-coded identification card system that employees must 
wear when working. This situation has resulted in an 
environment that favors a criminal, whether in drug smuggling 
or cargo theft.
    The unrestricted access that workers enjoy at the Port of 
Miami enables a corrupt one to operate in a free area, free 
from surveillance. They are free to load drugs and stolen 
merchandise into their vehicles at any day and at hour of the 
day or night.
    Many of the workers at the port carry firearms in their 
vehicles. Indeed, it is rare that we do not find many handguns 
in workers' vehicles during enforcement operations. No rules 
restrict the unlimited access or prohibit the carrying of 
firearms onto the port.
    There are no background checks performed as part of pre-
employment screening. Many workers at the port have extensive 
criminal backgrounds and have free access to Customs areas. 
Customs, as an agency, is prohibited from conducting criminal 
history checks on any prospective worker.
    In conclusion, let me say that we are constantly striving 
to develop new strategies and capabilities to make and keep our 
port safe from the threats of drug smuggling.
    We are in partnership with industry and local government to 
develop regulatory legislation in regard to port access. I feel 
that, together, we can make significant progress toward the 
common goal of safeguarding our ports.
    Thank you for allowing me to appear before you in the 
subcommittee. I'm glad to answer any questions you might have.
    Mr. Cummings. Thank you very much, Mr. Girard. We will now 
recognize Mr. Mike Sinclair, who is the chief of Miami Seaport 
Cargo Inspection Team, U.S. Customs Service. Welcome, Mr. 
Sinclair.
    Mr. Sinclair. Thank you, Mr. Chairman. I supervise a group 
of men and women inspectors at the Port of Miami that look 
specifically for containerized cargo, narcotics concealed in 
that containerized cargo.
    Over the past 6 years, we've seized over 150,000 pounds of 
cocaine in containerized cargo just at the Port of Miami. These 
seizures range in weight from less than 10 pounds to over 
31,000 pounds of cocaine concealed in cement posts in 1991. 
During fiscal year 1997, 29 cocaine seizures have been made, 
totaling over 11,800 pounds.
    A number of significant factors have combined to challenge 
our interdiction efforts.
    One is the trend of the smugglers to use nonsource 
countries as their method of importing cocaine into the south 
Florida area. No longer can we rely on the source countries as 
our target. Central and South America have become the source of 
many cocaine seizures at the Port of Miami.
    A second factor has been a recent shift to sending smaller 
but more deeply concealed loads of cocaine. While the number of 
cocaine seizures affected each year continues to climb, the 
average weight of each seizure has declined.
    The use of container structures to conceal cocaine has also 
become a major threat. Over 5,000 pounds of cocaine has been 
concealed in the structures of containers in fiscal year 1997.
    This trend is highlighted by a recent seizure on July 8th 
of 603 pounds in a container concealed in a false wall, in 
which the conspirators had installed a pneumatic door to gain 
access to the concealment.
    Until recently, the Port of Miami was the primary 
destination of loads of cocaine concealed in containers 
arriving into south Florida.
    Over the past 2 years, however, the number of narcotic 
seizures in Port Everglades has climbed dramatically and 
significant loads of cocaine have been discovered in 
Jacksonville and Port Canaveral. It appears that the smugglers 
are port shopping, in order to avoid detection in Miami.
    However, the greatest threat or challenge to our 
interdiction efforts is the presence of the internal 
conspiracies operating within our ports. These smuggling 
organizations, which may include any individual associated with 
the port, have accounted for over 60 percent of the total 
weight of cocaine seized in Miami over the past several years.
    These seizures have ranged from 50 pounds in a duffel bag 
at the rear of a container to over 6,000 pounds of cocaine 
concealed in a commercial coffee shipment last August.
    These conspirators often utilize the containers of large 
volume, nationally known companies, to conceal their narcotics 
without the knowledge or participation of the importer, often 
compromising the integrity of the legitimate cargo.
    The use of these major importers serves to thwart some of 
our traditional targeting efforts. The conspirators often 
discard the legitimate cargo at the docks at the foreign site, 
where they will place the cocaine into the container, notify 
dock workers at the U.S. ports, who are tasked with removing 
the cocaine prior to Customs detection.
    Inspectors often find duplicate seals attached to the 
shipments of cocaine. This allows the conspirator to seal the 
container, which conceals his illegal activity from both law 
enforcement and the ultimate recipient.
    Significant man hours are devoted to the detection of these 
internal conspiracies. Working closely with the industry 
through our Carrier Initiative Program, we have instituted 
several measures designed to thwart the efforts of these 
smuggling groups.
    The development and utilization of new x-ray technology 
will enhance our interdiction efforts and, hopefully, serve to 
streamline the process of examining cargo at our ports of 
entry.
    Another invaluable asset to our efforts is Operation 
Guardian, specifically the utilization of full-time National 
Guard men and women to assist inspectors at our ports of entry.
    In conclusion, let me state that it is incumbent upon all 
parties associated with the shipping industry to share in the 
responsibility of addressing the internal conspiracy threat. 
Federal, State, local governments, along with industry 
representatives and labor groups, must meet the challenge 
collectively.
    Thank you for allowing me to speak.
    Mr. Mica [presiding]. Thank you for your testimony. I would 
now like to recognize James H. Wallwork, commissioner of the 
Waterfront Commission of New York Harbor. Sir, you are 
recognized.
    Mr. Wallwork. Thank you, Mr. Chairman, and members of the 
subcommittee. I'm Jim Wallwork, commissioner of the Waterfront 
Commission of New York Harbor.
    I was asked to give this subcommittee a brief synopsis of 
the Commission's background, powers, and accomplishments. I'm 
going to hopscotch around a little bit and modify it, because 
of time, but I wanted to underscore a few things that 
Congressman Clay Shaw said.
    Congressman Clay Shaw reported that 63 percent of the port 
employees in Florida have criminal backgrounds, and they have 
been involved in drug smuggling.
    I'm happy to say, in the Port of New York, with the 
Waterfront Commission, we have various employment applications. 
Every one of our people who work on the docks, whether they be 
longshoremen, checkers, or whoever, are licensed or they are 
registered and, consequently, we look at their backgrounds.
    Two weeks ago, we removed a port watchman from the 
employment roles, because that port watchman had stolen five 
bags of cement. This is probably less than $200, but we removed 
him, because he is licensed by the Waterfront Commission and, 
if he is going to be stealing, we're going to send a strong 
message that we will not adhere to that.
    I think a lot of the members here understand that the 
Waterfront Commission was established some 43 years ago, after 
there were sweeping investigations about crime, corruption, 
extortion, all types of corrupt activities on the waterfront, 
and that our main job then was to clean up the waterfront, per 
se.
    This pervasive corruption motivated both States, after the 
legislatures did the investigations, to enter into a compact 
creating the Waterfront Commission of New York Harbor, and then 
this compact was approved by the Congress of the United States 
and signed into law, actually, by President Eisenhower, in 
August 1953, almost 44 years ago.
    The Commission is charged with safeguarding the public 
interest on the waterfront by eradicating both undesirable 
elements, individuals, and practices.
    The Commission's jurisdiction is in a 1,500 square mile 
port district. It includes the piers and the waterfront 
terminals in Brooklyn, Manhattan, Staten Island, Yonkers, Port 
Newark, Port Elizabeth, Bayonne, and Jersey City.
    The Commission has broad authority in licensing and in 
regulatory, investigatory, and law enforcement powers which are 
exercised through six different divisions.
    Now, our Police Division Detectives really are the eyes and 
the ears on the docks, and they are doing, I believe, great 
police work. They work on cargo theft. They work on drug 
smuggling. They work on loan sharking, extortion, and all types 
of crime, by organized crime and, frankly, disorganized crime.
    We have also investigative accountants assigned to the 
Division of Audit and Control to scrutinize the books and the 
records of licensee and potential licensee companies for 
evidence of criminal activity, and to ensure compliance with 
Federal and State laws, because we've had cases where organized 
crime infiltrated the stevedoring companies and, of course, 
that can open up the floodgates for drug smuggling and any 
other kinds of illegal opportunities that they might take.
    No public funds, incidentally, are appropriated for our 
Commission. The employers pay the Commission an assessment not 
to exceed 2 percent upon the employers' gross payroll payments.
    I mention this because I know that this testimony is 
interesting to the Florida delegation, because you are 
considering having a similar type of commission, I believe, in 
the greater Miami area.
    In fiscal year 1997-1998, our current fiscal year, the 
Commission will have a budget of $6.5 million, and we have 92 
employees.
    Now, without getting involved in the nuts and the bolts of 
the operation, suffice it to say that we do, as I say, license 
stevedore companies, we license pier superintendents, hiring 
agents, port watchmen.
    They are all licensed, and they have a higher standard than 
the checkers, who are checking equipment going in the ships and 
the cargo going onto the docks, and the telecommunication 
controllers who are actually registered.
    The individuals who load and unload vessels, or perform 
services incidental to such work, are called longshoremen, and 
there are workers who are warehousemen and maintenance people.
    In order for them to obtain a registration, they must be 
free from convictions of certain crimes and of derogatory 
conduct, which would render their presence at piers or 
waterfront terminals a danger to the public peace or safety. We 
have--approximately 30 percent, since we've been in being, have 
not been granted licenses or registration, even though they 
have applied to work on the waterfront. Today we have 2,680 
longshoremen, and over 75 percent of these people have no 
criminal records. The balance have records, but they're rather 
minute, and they're not disqualifying to be a longshoreman.
    I would like to skip briefly to our powers that we have and 
go into what we have done with licensing--I see my red light is 
on. I did want to cover one item which I think is important 
here.
    Mr. Mica. If you could take another minute and conclude, we 
would appreciate it.
    Mr. Wallwork. All right. I was told I had 10 minutes before 
I showed up today and I was prepared for 10 minutes.
    We are dealing with narcotics and we have been involved in 
narcotics, working with U.S. Customs, DEA. We do have a very 
good relationship with the Federal authorities.
    Operation Tailgunner and Tailgunner II were conducted by 
the Commission with other investigators of DEA and U.S. Customs 
between 1991 and 1996. This was an operation that we uncovered 
on cocaine and marijuana trafficking in a cargo theft 
operation. It was actually being run out of a wholesale coffee 
business located in Brooklyn near the waterfront. There were a 
total of 1,700 pounds of cocaine and 16,000 pounds of marijuana 
smuggled into the United States in containers of general cargo. 
As an offshoot of these investigations, we solved that and we 
also solved an open double homicide case as well.
    Operation Tailgunner II then came because of this. This was 
an operation where we had co-conspirators working. One was a 
longshoreman, one was a retired longshoreman, and other people 
working with the Cali Cartel people. They were bringing in 
cocaine, over 9 cases of smuggling, $40 million through the 
piers.
    Now, every 30 seconds in New York--and I think that this is 
an important statistic--every 30 seconds, 24 hours a day, 365 
days a year, a cargo container moves through the port of New 
York-New Jersey. It is an overwhelming task to inspect for 
cargo theft and the problems of narcotics. We are working as 
hard and as well as we can. It is a big job, Mr. Chairman. 
Thank you.
    [The prepared statement of Mr. Wallwork follows:]

    [GRAPHIC] [TIFF OMITTED] T6177.051
    
    [GRAPHIC] [TIFF OMITTED] T6177.052
    
    [GRAPHIC] [TIFF OMITTED] T6177.053
    
    [GRAPHIC] [TIFF OMITTED] T6177.054
    
    [GRAPHIC] [TIFF OMITTED] T6177.055
    
    [GRAPHIC] [TIFF OMITTED] T6177.056
    
    [GRAPHIC] [TIFF OMITTED] T6177.057
    
    [GRAPHIC] [TIFF OMITTED] T6177.058
    
    [GRAPHIC] [TIFF OMITTED] T6177.059
    
    [GRAPHIC] [TIFF OMITTED] T6177.060
    
    [GRAPHIC] [TIFF OMITTED] T6177.061
    
    [GRAPHIC] [TIFF OMITTED] T6177.062
    
    [GRAPHIC] [TIFF OMITTED] T6177.063
    
    Mr. Mica. I thank you, Mr. Wallwork. Your entire statement, 
without objection, will be made a part of the record.
    Mr. Wallwork. Yes, thank you.
    Mr. Mica. I would like to recognize now Edward V. Badolato, 
and he is chairman of the National Cargo Security Council.
    You are recognized, sir. I do not know if Mr. Cummings, who 
was in the chair while I was voting, mentioned it, you can 
summarize your entire statement, no matter how lengthy--within 
reason--will be made a part of the record. So, you are 
recognized.
    Mr. Badolato. Thank you, Mr. Chairman. I will be very brief 
in my oral statement. The National Cargo Security Council has a 
25-year history as a nonprofit government industry organization 
that represents shippers, carriers, insurers, forwarders, 
security and equipment companies dedicated to the safe and 
secure movement of the Nation's goods and commerce.
    Cargo crime is one of the most serious hidden crimes in the 
United States. We do not know exactly how bad it is, but the 
best estimates of the top experts in the country estimate that 
we lose on an annual basis $10 billion a year in the United 
States alone. International groups such as the International 
Marine Organization, have said that cargo theft could be as 
much as $30 billion internationally.
    We do know such things as impacting consumers. For example, 
if anyone buys a new Pentium type of computer, the High Tech 
Theft Foundation estimates that you are paying as a consumer an 
additional $150 by virtue of the cargo theft impact on that 
sale.
    We have no system today to collect data on cargo theft in 
the United States. We do not know what is being stolen and 
there is no nationwide system for reporting these type of 
thefts. There is no Federal focus, no dedicated Federal 
official who is in charge of cargo theft. Of the thousands of 
Federal officials in all of the agencies, there is not one 
individual who focuses 8 hours a day soley on cargo theft.
    Additionally, I think it is important to understand that we 
have most of the cargo theft in the United States taking place 
in what we call ``the Bermuda Triangle.'' Most of it takes 
place in three areas, in the Miami-southern Florida area, in 
New York-New Jersey, and the southern California area.
    Now, cargo crime is cyclic, and we have seen a tremendous 
rise over a 25-year period. With that in mind, we are now 
presently at the apogee of that period. There are five key 
reasons why we are now suffering the worst cargo loss that we 
have seen in a generation.
    First, we have a new breed of cargo crooks. These 
individuals are smarter, faster, more adaptive and understand 
how to use transportation. Many come out of the drug trade 
which helps them to use cargo as a means of their criminal 
activity.
    Second, cargo is a common denominator for most of the 
criminal activities that take place in the country involving 
drugs, involving smuggling, involving diversion of product and, 
in some cases, terrorism.
    The third key reason for the increase is the 
internationalization and that increase of international 
criminal organizations.
    The fourth reason is the overall reluctance to prosecute 
cargo crime as a property crime. We have very high thresholds 
bordering on $150,000 to $200,000 level thefts around the 
country, which means that theft of complete trailer loads when 
we catch the criminals may not be prosecuted.
    Finally, we have a tremendous change in the transportation 
industry involving automation, speed, and increases of 
shipments and so forth, with which the cargo criminals are 
heavily involved.
    Before I end, I would like to take the opportunity to say 
we have six recommendations to correct this tremendous criminal 
activity from the National Cargo Security Council.
    First, we would like to have a program, and we are 
currently organizing a program, to share best practices with 
all of the companies that are involved in transportation of 
cargo. We feel if they had standardized and set good security 
practices we can achieve a significant decrease in cargo theft.
    Second, we should support multi-jurisdictional cargo theft 
task forces. We started one in Florida and we hope to have one 
in New York-New Jersey and, also, in California. Also, we want 
to have a cargo theft reporting system. This is urgently 
needed. We need to correct the chronic underfunding of law 
enforcement agencies involved in cargo theft. The underfunding 
is not with drugs, but cargo theft.
    Additionally, we need to have the government-industry team 
improve the government aspects of that team. There is not a lot 
of participation from the Federal agencies in cargo theft. It 
is improving, but we are still not there.
    Finally, in closing, I would like to say that one of the 
things we need to have done is to have more focus and more 
leverage from all the R&D which is going on in the various law 
enforcement agencies in those side issues to cargo theft, i.e., 
in the drug area, smuggling, and so forth. We need to have more 
R&D focus on cargo theft. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Badolato follows:]

    [GRAPHIC] [TIFF OMITTED] T6177.064
    
    [GRAPHIC] [TIFF OMITTED] T6177.065
    
    [GRAPHIC] [TIFF OMITTED] T6177.066
    
    [GRAPHIC] [TIFF OMITTED] T6177.067
    
    [GRAPHIC] [TIFF OMITTED] T6177.068
    
    [GRAPHIC] [TIFF OMITTED] T6177.069
    
    Mr. Mica. Thank you for your testimony.
    I would like to recognize now Mr. Art Coffey, international 
vice president of the International Longshoremen's Association. 
Mr. Coffey, you are recognized, thank you.
    Mr. Coffey. Good afternoon, sir. I am the president of 
Local 1922 of the International Longshoremen's Association in 
Miami, FL. I have been in that local from Miami for 27 years, 
and the last 19 years as its president. As a district vice 
president with the ILA South Atlantic-Gulf Coast District and 
the international vice president of the ILA's Executive 
Council, I represent all south Florida ports of my union. This 
includes ports of Miami, Port Everglades and all Florida East 
Coast ports. I thank the Members of Congress for allowing the 
ILA to appear at this subcommittee.
    Today, I speak for the hardworking and law-abiding ILA 
members and their families who live and work in south Florida 
region. I also speak for tens of thousands of ILA members and 
their families who work in our Nation's ports from Searsport, 
ME, to Brownsville, TX.
    In April 1997, an article appeared in the Miami Herald 
saying in essence that U.S. Customs was failing to combat the 
illegal flow of drugs into this country via south Florida ports 
and blamed the crisis on dock workers at the Port of Miami and 
other south Florida ports.
    What a change. Eight years earlier when the same newspaper, 
the Miami Herald reported on January 18, 1989, the marvelous 
cooperation between the ILA, ocean carriers, and the U.S. 
Customs to combat illegal drugs flowing drugs into this 
country.
    With great fanfare the then U.S. Customs Commissioner 
William von Raab announced in south Florida an unprecedented 
agreement with the ILA and carriers would tighten security of 
America's seaports. But it has changed in 8 years. The ILA 
always remained ready in its role as active partners with law 
enforcement agencies to halt the illegal drugs at all the 
Nation's ports. Our international president, John Bowers, even 
threatened a national boycott shipment from countries who are 
suspected of supplying illegal drugs into this country. 
Newspapers around the country printed a stirring quote 
delivered before the U.S. Customs press conference in 
Washington, DC, in 1989 when President Bowers said, ``ILA 
longshoremen would rather lose their wages than lose their 
children.'' We were praised by Commissioner von Raab for 
creating the ILA-DAD program, Dockers Against Drugs.
    Perhaps it is the U.S. Customs Agency that has failed in 
its job of stopping the flow of illegal drugs into this 
country. Now, burdened with the shortage of manpower, budget 
cuts and ineffective leadership, Customs wrongly targets their 
former partners and blames ILA longshoremen for their own 
shortcomings.
    The Honorable John Mica, Member of Congress, traveled to 
south Florida and the Bahamas several weeks ago to examine the 
Federal counter-drug control efforts. The ILA agrees with 
Congressman Mica, specifically finding that the U.S. Customs 
should increase the number of agents in the Miami and south 
Florida area. We also agree that Congress should appropriate 
funds to increase and improve surveillance in all U.S. ports.
    On the recommendation of background checks for our workers, 
the ILA is puzzled as to whom should the background checks and 
just how effective they are. Who specifically are the warehouse 
union mentioned in Congressman Mica's report? It is not the ILA 
which employs less than 12 warehouse workers on an average day 
in the Port of Miami. The largest employer of personnel and 
warehouses in south Florida regrettably is not the ILA, but 
Manpower, Inc., another day laborer employee agencies.
    I believe this committee should question the character of 
these employees over the ILA's since they are usually paid 
minimum wage with no benefits. Are they not more likely to 
enhance their incomes through illegal means?
    The ILA believes that if one of its members is caught 
engaging in illegal activities, he should be punished, but not 
to burden the entire organization with background checks 
because of the bad behavior of a select few. I hope that it is 
not this committee's intent to solving the problem. It just 
will not work.
    In fact, it is ironic to note that background checks have 
proved ineffective to U.S. Customs and Florida law enforcement 
agencies that they want us to have. Within the past year, 
Customs officials in the south Florida area along with Broward 
County Sheriff's Department employees were busted for aiding 
smugglers who were transferring drugs through the Ft. 
Lauderdale Airport. Miami television recently reported that 
another Customs agent in Miami was charged with using a 
confiscated drug smuggling boat for his own personal pleasure.
    Do we condemn the entire Customs Agency or law enforcement 
agency because of these actions? Of course not. We look for a 
tougher law enforcement system, justice system to deal with it 
as it should be. We do not like to infringe on the rights of 
workers by unnecessary background checks. Let me emphasize that 
the ILA does not condone illegal drug trafficking or its use. 
ILA members' children attend south Florida schools where the 
illegal drugs are sold. We want that stopped. ILA families 
living in south Florida are equally jeopardized by the crimes 
of robbery, assault and murder associated with the Nation's 
illegal drug problems.
    For the past 6 years, our union and its members have 
negotiated one of the toughest drug problems and alcohol abuse 
rehabilitation programs in the history of America. Drug testing 
of new employees is mandatory. Failure to drug test for the 
third time after rehabilitation means a lifetime ban of working 
in our industry.
    Instead of the witch hunt against the decent working men 
and women of the ILA, the ILA invites you, again, as partners 
in the Nation's war against drugs. The ILA, which we like to 
say stands for I Love America, wants the United States of 
America to be drug-free from illegal drugs. We are willing to 
do our part to reach that goal for our citizens and our Nation. 
Thank you, sir.
    [The prepared statement of Mr. Coffey follows:]

    [GRAPHIC] [TIFF OMITTED] T6177.070
    
    [GRAPHIC] [TIFF OMITTED] T6177.071
    
    [GRAPHIC] [TIFF OMITTED] T6177.072
    
    [GRAPHIC] [TIFF OMITTED] T6177.073
    
    [GRAPHIC] [TIFF OMITTED] T6177.074
    
    [GRAPHIC] [TIFF OMITTED] T6177.075
    
    [GRAPHIC] [TIFF OMITTED] T6177.076
    
    [GRAPHIC] [TIFF OMITTED] T6177.077
    
    [GRAPHIC] [TIFF OMITTED] T6177.078
    
    [GRAPHIC] [TIFF OMITTED] T6177.079
    
    [GRAPHIC] [TIFF OMITTED] T6177.080
    
    [GRAPHIC] [TIFF OMITTED] T6177.081
    
    [GRAPHIC] [TIFF OMITTED] T6177.082
    
    Mr. Mica. I thank you for your testimony and also for your 
indication of support from the ILA to work with us in this 
mutual effort to combat illegal narcotics.
    I would like to thank our other panelists and now recognize 
for questions Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    I returned, along with several other members of this 
subcommittee, recently from a trip down to South America. We 
visited Panama, Colombia, Peru, and Bolivia, from which 
countries collectively--a vast majority, virtually all of the 
cocaine which eventually finds its way onto the streets of 
America comes. Since then, we have had some hearings with the 
State Department folks and some others. We are going to be 
having, as I understand it, some additional hearings next week. 
This one fits very importantly in the overall scheme of what we 
are trying to do in this subcommittee; and, that is, to find 
out specifically why--we know that the war against mind-
altering drugs in recent years is not working. We want to find 
out why and to fashion some legislative and appropriations 
tools that help in that regard.
    One of the things that I discovered on the trip is there 
are, indeed, some countries that are doing it the right way. 
Not us. Oh, and I am talking about an overall drug strategy. 
There certainly are the men and women of Customs, DEA, the 
other law enforcement agencies are doing an outstanding job 
putting their lives on the line. The problem is we do not have 
a strategy from above that really gives them the backup and the 
tools that they need to do the job.
    I think there are four ``C's,'' I call it four ``C's'' of a 
successful antidrug effort: It has to be clear. It has to be 
consistent. It has to be coordinated. It has to be--well, heck, 
that is only three. It has to be clear, consistent, 
coordinated, and there is one more. I will think of it in a 
second.
    There are some countries that are doing that. Peru, for 
one. We have in the past done it in this country, but we are 
not doing it right now. I commend the subcommittee chair, 
Congress Hastert, for putting together this panel today because 
it brings to bear some of the often, as you have said, Mr. 
Badolato, some of the overlooked aspects, some tools that can 
be very, very effective and some areas that we need to look at 
more carefully than in the past.
    I am somewhat disturbed to see we have somewhat of a 
dispute. I was not aware of this, Mr. Coffey, I just sort of 
sat up when you began your remarks. I hate to see internally 
within the country here that we are sort of going at each other 
and, hopefully, we can get these problems resolved.
    In my experience as a former U.S. attorney, I worked very 
closely with Customs and know firsthand that the vast 
overwhelming majority of the men and women of the Customs 
Service, whether they serve in Atlanta, where I served as U.S. 
attorney, or in Miami or anywhere else, are very, very honest, 
dedicated men and women who are doing a tremendous job.
    I also know from working with union members, particularly 
at Lockheed-Martin and Marietta in my district that, likewise, 
the vast majority, the overwhelming majority of men and women 
that are union workers in our country are hardworking, honest, 
patriotic Americans who want to do their part and are doing 
their part to win the war against drugs by not tolerating any 
drugs in the workplace, not tolerating drugs in schools and 
families and other businesses or anywhere else in our 
communities.
    So I really do hope that whatever problems that may exist 
in Miami, we can get it straightened out, because the only 
people that benefit if we have disputes between our government 
agencies and our workers or businesses is the drug cartel, the 
drug traffickers. We ought to be doing a great deal more to 
make their job harder rather than creating divisions within our 
own society where we make their job easier. Every time there is 
a diversion between Federal agencies or between agencies, 
Federal agencies, and local law enforcement or between law 
enforcement and businesses, that does nothing except allow 
another avenue where the drugs can sneak in. So I really do 
hope that whatever problems there may or may not be between 
Customs and the ILA, that you all can work them out. It does 
not accomplish anything positive if we cannot.
    Mr. Girard, if you could, you know, try and address, if you 
could in just a couple of minutes in a positive, are there some 
problems between you all and ILA and, if so, can we work these 
out? Or are things going OK and we just need to really sort of 
hunker down, as we say in Georgia, and do a little better job?
    Mr. Girard. Well, sir, I am not aware of any 
institionalized problems between Customs and the ILA. As a 
matter of fact, I know meetings have been held between other 
Customs divisions and the ILA to address the problems at the 
Port of Miami. We are not singling out any particular 
organization when we talk about internal conspiracies. 
Certainly, there may be ILA members that have been involved in 
them, but there are also many other employees from different 
areas, all the facet of the port that are involved. We welcome 
their continued cooperation.
    Mr. Barr. Is there, something, Mr. Coffey, that can be done 
to try and resolve whatever problems there are? I do not know 
that there is really much we can do; although, if there is 
something that we can look at from our oversight standpoint, we 
certainly will. Is there anything we can do or is there 
something that can be done to get things back on track if they 
are somewhat off-track?
    Mr. Coffey. Well, no, Congressman. I only pointed out that 
one particular incident just to show that drugs hit everybody. 
It does not matter if you had a background check or you did not 
have a background check or whatever it may be. It is not a shot 
at U.S. Customs. U.S. Customs and the ILA in Miami, at least, 
have been very cooperative with each other.
    There is no problems as we have developed a port security 
committee in the Port of Miami. When the article came out in 
the Miami Herald, I called the chief of security, who is with 
me today, Fred Wong, from the Port of Miami, also the chief of 
operations. I asked them to come with me today. We formed a 
committee with Customs and at that committee, Mr. Sinclair was 
there, and so many other Customs agents, I do not remember, but 
we were trying to just start on the problem. We wanted to be 
the solution to this situation. There really is no loggerheads 
or anything of that nature or any problems that I am aware of 
with U.S. Customs.
    Mr. Barr. That is good. I certainly had a different 
impression from some of your remarks, but maybe I just 
misinterpreted them.
    Mr. Wallwork. Mr. Chairman, could I just make a quick 
comment that I think is germane to that? In New York-New 
Jersey, of course, with the Waterfront Commission, we license 
and register, as I said, the longshoremen and the other people 
that work with the ILA.
    The overwhelming majority of the ILA people, as I 
testified, have good records. We have a good relationship with 
the ILA leadership. We also have a good relationship with the 
U.S. Customs. I would say in the Port of New York-New Jersey, 
it is working and it can work.
    The other factor is that with our powers, we have removed 
99 corrupt union leaders from the ILA and some of them, at 
least 4 of them in the early 1960's, late 1950's migrated down 
to Miami into Local 22.
    Mr. Barr. Could I just have 1 more minute? I ask unanimous 
consent just for 1 minute.
    Mr. Mica. Without objection.
    Mr. Barr. Mr. Badolato, who is here, and the National Cargo 
Security Council I think can play a key role in all of this. I 
do appreciate the paper and your remarks and some specific 
solutions. I would just ask that as you work through this, if 
there are specific legislative steps that we can make--a couple 
of them come to my mind when I look at your six points here in 
terms of perhaps focusing on training of law enforcement 
activities, focusing a little more specifically with some of 
our Federal agencies on cargo theft in particular and how it 
relates to the problem of drugs coming in.
    There may be some other specific measures we could look at. 
I know we have Mr. McCullum here who chairs the Crime 
Subcommittee on which I also serve. If there are specific 
legislative measures that you think might be appropriate for us 
to address, whether it is Title 18, the criminal code, if any 
of our laws regarding cargo theft need to be strengthened or in 
some other area of the United States Code, let me know, please. 
This I think is an area that is very frequently overlooked and, 
yet, it plays a key role because so much of the drugs that we 
have on our streets come in through our ports. I appreciate 
your being here and would again encourage you if there is 
anything more specifically that we could be looking at from a 
legislative standpoint, I would be very receptive.
    Mr. Badolato. Yes, sir, Congressman. We are very pleased 
and look forward to doing that.
    Mr. Barr. Thank you. Thank you, Mr. Chairman.
    Mr. Wallwork. Mr. Chairman, could I make one other comment 
which I think, again, is germane here? We have a good 
relationship with the National Cargo Security Council in the 
Port of New York-New Jersey. I would like to say that in one of 
our investigations in cargo theft we have uncovered a system 
whereby these people that are taking the cargo, stealing the 
cargo, have a way of opening the cargo doors without breaking 
the seal. So, therefore, they put the cargo door back on, the 
seal is still there and everybody thinks, ``Hey, nothing has 
happened.''
    Now, specifically in Freeport in the Caribbean it was 
testified earlier that they go in there and they do not open 
the containers, so nothing can be done. Well, you can pop open 
those container doors without breaking the seal, put narcotics 
in or remove them or do whatever they want. I want to make sure 
that the committee understands that through this cargo theft, 
we have found that certainly can be done. They can get inside 
without breaking the seal. Very important.
    Mr. Barr. Is that a problem of maybe addressing the 
standards for the cargo containers?
    Mr. Wallwork. Well, there is a way and I can give it to you 
in executive session so that we do not disclose what they are 
doing publicly, but they are breaking in without breaking the 
seal and gaining access to cargo.
    How we uncovered this was there were short loads of 
clothing and other things going to the manufacturers and they 
would open up the door, the seal was still there, and they 
would maybe have $25,000 or $50,000 of shortages and they could 
never show where the shortage occurred because, actually, these 
cargo theft people were involved in a great big ring.
    Mr. Mica. I thank you and I thank the gentleman from 
Georgia. I now recognized the ranking member, Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman.
    Mr. Girard and Mr. Sinclair, I want to make sure that we 
are--and Mr. Coffey, for that matter, you would agree what we 
have heard today, that there has been a significant increase in 
drug smuggling in the Port of Miami. Is that your experience or 
your observation?
    Mr. Girard. Yes, sir, it is.
    Mr. Barrett. Mr. Sinclair.
    Mr. Sinclair. Yes, sir.
    Mr. Barrett. Mr. Coffey, you would concur with that?
    Mr. Coffey. I have no knowledge of how those statistics----
    Mr. Barrett. Can you tell me approximately when it began? 
Was there a time when you started noticing a difference?
    Mr. Sinclair. The average seizures back in 1990-1991--well, 
to go a little bit further back, most of the drugs in the early 
1980's were marijuana. We started seeing significant cocaine 
seizures in 1986-1987. Most of them were deeply concealed going 
to what we call a consignee or somebody out in the public who 
actually ordered the drugs and hid them in a container and had 
no coercion with anybody at the port.
    We started to see major loads of internal conspiracy-
related cocaine in 1989 and 1990. Colombian coffee was a 
favorite, with over 17 seizures in 3 years in Colombian coffee. 
Significant loads of thousand pounds-plus. And this continued 
up to about 1994.
    In 1995, we saw a significant plunge in the amount of 
cocaine, almost half from 20-something thousand to 11,000. In 
1996, we were back up to the 22,000 mark, and we are currently 
at 12,000. However, the Port of Port Everglades is seeing 1,000 
times what they saw before. They are up to like 8,000 or 9,000 
this year already. A typical year for them is 2,000; so, there 
are shifting ports. Jacksonville recently got 1,000 pounds of 
cocaine. So, to say that it is just at the Port of Miami, it is 
increasing--the decrease at the Port of Miami is made up at the 
increase at the other south Florida ports.
    Mr. Barrett. Mr. Sinclair used the phrase, ``internal 
conspiracy.'' Mr. Girard, I think you used that phrase also, as 
did Mr. Banks. What are you talking about specifically when you 
are using that phrase?
    Mr. Girard. Well, sir, what internal conspiracy is, it is a 
corrupt relationship between the smuggling organizations and 
different em- ployees or ocean shipping lines, airlines, and 
related service indus-tries, all the cargo handling areas are 
susceptible. So, what in ef- fect happens is that the people 
that are supposed to be moving this cargo for Customs 
examination and safeguarding it prior to that are actually in 
collusion with the smuggling organizations. They are either 
taking the drugs out of the cargo before examination or 
diverting the cargo totally out of Customs' control.
    Mr. Barrett. How widespread is this?
    Mr. Girard. We see an increase. It is periodic. When we 
started targeting consignee loads at the Port of Miami; that 
is, loads that were intended to pass through the Port hoping to 
avoid Customs examination just on sheer luck, when we started 
targeting those through increased intelligence, we created a 
data bank that im- proved our targeting ability so that we were 
picking these loads out with increasing frequency. We saw a 
dramatic change in the inter- nal conspiracy type of smuggling 
method. It is very telling when you open the back of the 
container and the drug is just piled in the back of a 
container; 1 of 50 coffee containers destined for a legiti- 
mate consignee. We know that that internal conspiracies existed 
and we're going to use it to target that specific container.
    Mr. Barrett. Have they included Customs workers as well?
    Mr. Girard. Not to my knowledge, sir, no.
    Mr. Sinclair. Not at the seaport that I am aware of.
    Mr. Barrett. OK. What is the best way to attack this type 
of criminal enterprise from your standpoint?
    Mr. Girard. Well, sir, the way we approached it, from our 
side, from the investigative side is through undercover 
operations where we passed ourselves off as drug traffickers 
and through sources of information located these internal 
conspiracies in place. We then sent sham loads of cocaine from 
foreign countries into the United States and watched them pull 
what they thought was cocaine from the shipping conveyance and 
deliver it to us, and we arrest them.
    Mr. Sinclair. Sir, the way we approach it, if we were 
looking for something that was a normal consignee load, we 
could target it off a manifest and send two or three inspectors 
and a canine and some tools out to look at this particular 
container. With the internal con- spiracies, we do not know 
what container on that vessel contains that load. There may be 
150 containers on that vessel. They may have used, just to use 
an example, Walmart may have five contain- ers. They may have 
decided to use those containers knowing we were not going to 
target Walmart. So, what we have to do, in effect, is send out 
10 to 12 inspectors and 5 or 6 National Guard, and we increase 
our manpower and we have to control every container that comes 
off that vessel because of this internal conspiracy.
    Mr. Barrett. Mr. Coffey, your union, obviously has come 
under some attack in this. What constructive role do you think 
you are playing and what more constructive role can you play?
    Mr. Coffey. Well, one of the things that has happened over 
the years is the shipping of containers has changed quite a 
bit. We used to get a lot of containers that were discharged 
from the vessels. When they were discharged from the vessels, 
they had multiple consignees in them. Those multiple 
consignees, that container was then stripped at the warehouse 
and then the owner of the cargo would come and pick it up. 
Today, a lot of the--they call it intermodalism. An awful lot 
of the containers now are on ITs, In-Transits. They come and 
take them off the port--I mean when they hit the port, they go 
off the port to different debarking stations or NVOCCS, which 
is a nonvessel operator. I mean it is other places. It does not 
happen there.
    Mike's group probably takes apart more containers than we 
ever do. We take nothing apart or strip any boxes that come out 
of the Caribbean, Central and South America. We do from the Far 
East. We do about 15 containers a week in that respect, but 
most of the containers that are landed in the Port of Miami are 
shifted inland.
    Mr. Barrett. Thank you. I have no further questions.
    Mr. Barr [presiding]. Thank you, Mr. Barrett.
    By the way, my crack staff reminded me that the fourth C of 
my successful antidrug effort, that I had forgotten 
momentarily, was comprehensive: clear, consistent, coordinated, 
and comprehensive.
    If I could, just very, very briefly, Mr. Girard, Mr. 
Sinclair, and anybody else that might have the background to 
comment on this. Over the course of the last couple of years, 
have you noticed any changes in the type, amount, way in which 
drugs are coming in, where they are coming from? Any trends 
that you have noticed in recent months?
    Mr. Sinclair. As I testified earlier, the loads are 
becoming more frequent, but smaller in nature. Some people have 
speculated that some of the breakup of the major cartels over 
the past 2 or 3 years might have set the drug smuggling 
industry a little bit eschew and there are some smaller groups 
out there that do not have that much resources. They are 
sending smaller loads.
    Mr. Barr. Quality changed?
    Mr. Sinclair. I do not know.
    Mr. Barr. The purity?
    Mr. Sinclair. No, no.
    Mr. Barr. No.
    Mr. Sinclair. They are also much more deeply concealed now. 
Probably the biggest factor is they are coming from everywhere. 
This year, alone, we have over 5,000 pounds of cocaine from 
Costa Rica, which is something that we never had to worry about 
before. And now we have 5,000 pounds of cocaine from Costa 
Rica, roughly, and it is in the construction of the container, 
itself. We have to worry about the cargo, we have to worry 
about the container.
    Mr. Barr. Any from Mexico that you see coming in through 
ports in Florida?
    Mr. Sinclair. No, sir. We do not have a great volume of 
cargo coming from Mexico into Port Everglades or Miami.
    Mr. Barr. Mr. Girard, anything to add?
    Mr. Girard. You know, it highlights the lack of adequate 
intelligence across the ocean, you know, that would provide us 
with, you know, sort of an early warning system to know that 
all of a sudden Costa Rica is starting to really be a transit 
country that needs special attention. I know that has been 
talked about with Mr. Banks and DEA and the Coast Guard. That 
is one of our concerns. We need to expand our intelligence 
capabilities. We have to. It is a must.
    Mr. Barr. In that vein, do you all deal with the Southern 
Command at all in terms of the early warning and the tracking 
the vehicles coming in from South America and Central America 
into the mainland, including Florida?
    Mr. Girard. No. I mean we are cargo specialists. So, I mean 
it is a normal route, you know, that cargo is flowing from 
Costa Rica, et cetera. I know that some of the air units, with 
JADA East, are operating with Southern Command, but I cannot 
answer that directly.
    Mr. Barr. So what you are talking is better civilian 
intelligence as it were from human sources.
    Mr. Girard. Right, exactly.
    Mr. Barr. And technical sources?
    Mr. Girard. Yes. I mean, we should have the means to notice 
the shift in change of the shipping routes or staging areas, 
you know, throughout Central and South America.
    Mr. Barr. Have we had that capability in the past? Have you 
seen better intelligence in the past or have we never really 
had it?
    Mr. Girard. From my experience, I have never really seen, 
you know, excellent intelligence where we could actually 
pinpoint. We are more reacting to events as we discover them. 
And then it is worked backward.
    Mr. Wallwork. Mr. Chairman, if I could just interject? In 
New York, approximately 3,000 containers move through the ports 
in New York and New Jersey every day. It is my understanding 
that Customs looks at about 50 of those containers and maybe 
half of them for narcotics, the rest for contraband. This is 
like looking for a needle in a haystack. We are never going, in 
my judgment, to be able to interdict smuggled drugs through 
looking in containers--hard as the Customs people and the other 
people work at it. I have been down on the docks. I have seen 
the dogs. I have seen the National Guard people and I have seen 
the Customs people sweating in 95 degree heat.
    In my opinion, not only do we have to do what we have been 
discussing here, but I think Speaker Gingrich was 100 percent 
right when he said, ``If you are a big-time drug smuggler, 
second offense, the death penalty.'' And Mrs. Reagan's, ``Just 
say no.'' I think it is an education program that cocaine fries 
the brain and it is just like a stroke to the brain. We have to 
get the message out to the American people, especially the 
young people. Otherwise, we can chase these containers and we 
can talk about what Customs and DEA, the Waterfront Commission 
can do, we are never going to solve the problem, in my humble 
judgment.
    Mr. Barr. Have you all, particularly from the Customs 
standpoint, have you all noticed any particular problem with 
diplomatic shipments coming in?
    Mr. Sinclair. No, sir.
    Mr. Barr. You do not have any way of----
    Mr. Sinclair. No, sir.
    Mr. Barr. Do you all have any way at all of really tracking 
those or detecting? Are they subject to the same detection 
attempts, efforts, or devices or procedures that are used for 
commercial?
    Mr. Sinclair. Yes, sir, from an inspection standpoint. No. 
1, there are not very many at seaports. It is mostly an air 
cargo thing. No. 2, if we had some reason to suspect a 
diplomatic shipment, we would take the proper steps and we can 
contact embassies and what not and consulates and investigate 
whether we can examine them or not. The volume is not that 
great down there.
    Mr. Barr. What about cruise lines? Is this a serious 
problem? Inconsequential? Increasing? How would you 
characterize the problem with cruise lines?
    Mr. Sinclair. I would characterize it as large. The same 
people who are involved in the internal conspiracies at the 
cargo end of it are also the same people that help work 
vessels, remove bags. There are so many--an average ship may 
have 1,000 crew members. Peter may be able to talk a little 
more on that as to what our crew member end of that is; but 
these same dock workers are working cruise ships, also.
    Mr. Barr. Is there any help that we could provide? Is it 
simply a matter of manpower? Is it a problem of not having 
sufficient technical equipment? Everything from flare radars, 
cutter sensors, various hand-held detectors, x rays, detection 
machines. Or is it a combination of everything that you all do 
not have enough of?
    Mr. Sinclair. I believe it is a combination of everything. 
Not necessarily we do not have enough of it, but as it is 
coming in, we need to keep calling on it. The National Guard 
program is very important. The technology that we are getting 
in, ready to receive at the Port of Miami over the next 2 
years, we are getting ready to receive three different total 
container x-ray systems. We need to keep that program going. 
They are from the DOD.
    Listening to all the testimony here today, we do need some 
mechanism of limiting access to the port. That is, you know, 
whether we want to pattern it after New York or pattern it 
after the sealing program at our airports, something needs to 
be done.
    Mr. Barr. You are talking about limiting access from land?
    Mr. Sinclair. Limiting access to workers or people who do 
not need to be out there on the port when they are not supposed 
to be. That is basically it.
    Mr. Barr. Would anybody disagree with that from the private 
sector?
    Mr. Coffey. I do. I do because even, as Mr. Wallwork said, 
that after 40-something years, he just threw somebody off the 
docks the other day. I mean, I am sure there is background 
checks. I am sure all the background checks in the world do not 
do a world of good. Mike and I have discussed access to the 
cargo area where they were going to have a certain area where 
the longshoremen and the workers who worked cargo vessels were 
going to park their vehicles and then get jitneyed or trolleyed 
into the area. That particular program just went down the tubes 
because they said it cost too much. So now, the men go down 
into that area and they park their cars and now they are being 
charged with taking drugs or whatever it may be, contraband, 
off the port in their cars. So we are asking for them to put 
the jitneys in place. We are saying, get the parking lot, limit 
the areas, limit the people. We have no problem with things of 
that nature.
    Mr. Barr. So you all do not have a problem with the 
concept. We just have not found the right way to make it work?
    Mr. Coffey. Our minds are open. I think we have to really 
brainstorm the whole idea of it and to take a good hard look 
and get some counts of heads of what we are talking about 
because in all my time down there, U.S. Customs or no one 
really has come into my office and said, ``Listen. This is what 
we have. This man did this. This man did that.'' That has never 
happened to me. I am just finding out all of this within the 
last couple of weeks as to what really is going on.
    I think the Port of Miami is different than the Port of New 
York. I think there are a lot of things that are different 
there than here. I think that if we all really sit down and try 
to formulate something, which we did and we are doing right now 
with the port security meetings, and we have been doing this 
just recently. I think we have to keep on doing it.
    Mr. Wallwork. Mr. Chairman, we in the Waterfront 
Commission, since the inception of the Waterfront Commission in 
1953, have revoked or we have suspended approximately 6,000 
people from working on the dock. That would be because of 
criminal activity.
    Mr. Barr. OK. I would like to, unless there is any further 
comments, thank all members of this panel for some very 
enlightening direct testimony as well as answers to questions. 
If you all have anything else further that you would like to 
submit for the record, please do so. Other members of the 
committee, as well as the Crime Subcommittee and from the 
Florida delegation, we will leave the record open so they can 
submit any additional questions or comments for 2 weeks.
    Thank you, gentlemen, very much.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]


</pre></body></html>
